<html>
<title> - DEPARTMENT OF DEFENSE FISCAL YEAR 2021 BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                         DEPARTMENT OF DEFENSE

                        FISCAL YEAR 2021 BUDGET

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., MARCH 10, 2020

                               __________

                           Serial No. 116-24

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
           
           


                       Available on the Internet:
                            www.govinfo.gov
                            
                            
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-368                WASHINGTON : 2020 
 
                             
                            
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
ROSA L. DELAURO, Connecticut         JASON SMITH, Missouri
LLOYD DOGGETT, Texas                 BILL FLORES, Texas
DAVID E. PRICE, North Carolina       GEORGE HOLDING, North Carolina
JANICE D. SCHAKOWSKY, Illinois       CHRIS STEWART, Utah
DANIEL T. KILDEE, Michigan           RALPH NORMAN, South Carolina
JIMMY PANETTA, California            KEVIN HERN, Oklahoma
JOSEPH D. MORELLE, New York          CHIP ROY, Texas
STEVEN HORSFORD, Nevada              DANIEL MEUSER, Pennsylvania
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            TIM BURCHETT, Tennessee
BARBARA LEE, California
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee
RO KHANNA, California

                           Professional Staff

                      Ellen Balis, Staff Director
                  Becky Relic, Minority Staff Director
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., March 10, 2020.................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     6
        Prepared statement of....................................     8
    Hon. David L. Norquist, Deputy Secretary of Defense, U.S. 
      Department of Defense......................................    12
        Prepared statement of....................................    14
    Hon. Jason Smith, Member, Committee on the Budget, letter 
      submitted for the record...................................    30
    Hon. Ilhan Omar, Member, Committee on the Budget, article 
      submitted for the record...................................    52
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................    87
    Hon. John A. Yarmuth, Chairman, Committee on the Budget, 
      questions submitted for the record.........................    92
    Hon. Ilhan Omar, Member, Committee on the Budget, questions 
      submitted for the record...................................    95
    Answers to questions submitted for the record................    96


                         DEPARTMENT OF DEFENSE

                        FISCAL YEAR 2021 BUDGET

                              ----------                              


                        TUESDAY, MARCH 10, 2020

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
210, Cannon House Office Building, Hon. John A. Yarmuth, 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Moulton, Doggett, 
Schakowsky, Panetta, Morelle, Horsford, Scott, Jackson Lee, 
Jayapal, Omar, Peters; Womack, Woodall, Johnson, Smith, 
Holding, Stewart, Norman, Hern, Roy, Meuser, Crenshaw, and 
Burchett.
    Chairman Yarmuth. This hearing will come to order.
    Good morning. I want to welcome everyone to this hearing on 
the Department of Defense's Fiscal Year 2021 Budget.
    And I certainly welcome Deputy Secretary for DoD David 
Norquist. Thank you for being here today.
    I will now yield myself five minutes for an opening 
statement.
    Chairman Yarmuth. Defense spending makes up more than half 
of all discretionary spending, so it is critical that the 
Budget Committee fully understand the Department's budget 
proposal and what it means for the future.
    While we already have a budget in place for Fiscal Year 
2021, we owe it to the taxpayers and our men and women in 
uniform to take a comprehensive look at our security needs and 
provide oversight of the defense budget.
    To that end, I would like to welcome back Deputy Secretary 
Norquist.
    I am glad to have DoD back before our Committee for a 
second year in a row, after a long hiatus.
    We have a responsibility to provide the necessary resources 
to defend this country, and that includes maintaining a 
military that is second to none. However, our national security 
involves more than our military. Our country has long 
understood that an effective national security strategy 
requires a whole-of-government approach, including diplomacy 
and foreign aid to prevent war and broker peace in times of 
conflict; law enforcement to keep our communities safe; 
oversight to protect our food supply, our air, and our water; 
innovations in science and technology to keep our edge over 
competitors; programs to mitigate the destabilizing effects of 
climate change and prepare against pandemics; and investments 
in education and infrastructure to keep the economy, the source 
of our strength, growing.
    If we are to truly commit to strong national security, the 
conversation needs to include all of the agencies and programs 
that keep us safe. The budget levels we agreed to last year 
under the Bipartisan Budget Act of 2019 embody the undeniable 
connection between non-defense and defense investments.
    I thought the President finally understood this as well, 
considering he signed the bill into law. Instead, he reneged on 
the bipartisan, bicameral deal and once again proposed 
destructive and irrational cuts to investments critical to our 
national and economic security.
    As a prime example, this budget cuts the funding for the 
State Department by nearly one-quarter compared with the 2020 
enacted level. This is irresponsible and shortsighted. And you 
do not have to take it from me. The President's own former 
Secretary of Defense, James Mattis, famously said, ``If you do 
not fund the State Department fully, then I need to buy more 
ammunition.''
    Diplomatic operations, international narcotics control and 
law enforcement, humanitarian aid, disease prevention and 
control, and education, all face destructive and reckless cuts.
    While the coronavirus spreads around the world and here in 
the United States, we clearly see how human health is 
interconnected and a global concern. Despite this reality, the 
President's budget cuts funding for global health programs by 
$3 billion, or 34 percent below the 2020 enacted level.
    The Department of Defense has consistently identified 
climate change as a national security challenge and threat 
multiplier. But the President's budget not only fails to take 
the scale of the threat seriously; it does not even incorporate 
the cost of climate change into the budget. At home, U.S. 
military facilities, operations and equipment are vulnerable to 
storms, sea level rise, flooding, wildfires, and drought. And 
abroad, climate change exacerbates international instability 
and stands to increase the frequency, scale, complexity, and 
cost of future DoD missions. We must be ready.
    Moreover, the President's budget includes major gaps 
between funding and plans. This shows a lack of strategy that 
will result in inefficient military spending and a less 
effective military if not corrected.
    To be clear, I do not support all of the provisions of the 
Pentagon's national defense strategy, but setting our military 
up to fail is not only wasteful, it is potentially dangerous.
    Finally, this proposal defaults on the budget agreement and 
sets the stage for funding battles with Congress and more 
continuing resolutions. We ask our troops to perform a very 
difficult job, but it is made harder if we fail to come through 
on time with the proper resources in the right accounts.
    Thankfully, the Senate Majority Leader indicated that he 
believes in the budget we already have in place and will stick 
to it.
    Deputy Secretary Norquist, I realize the tremendous 
responsibility shouldered by you and your Department. Securing 
the safety of the American people and maintaining the best 
interest of our service members is no easy job, especially when 
you are operating under the direction of a President who often 
gets his security briefings from cable news and puts his 
personal whims above our national security.
    We are all concerned by the President's politically 
motivated and brazen reprogramming of military funds for the 
border, for his border wall pet project. I have no doubt this 
not only makes your job harder, but it makes it harder for 
those who put on the uniform and sacrifice for this country 
every day.
    Once again, I thank you for being here today and I look 
forward to your testimony.
    [The prepared statement of Chairman Yarmuth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairman Yarmuth. I now yield five minutes to the Ranking 
Member for his opening statement.
    Mr. Womack. Thank you, Mr. Chairman, for this hearing.
    Thank you, Deputy Secretary Norquist, for being here today.
    We are here to discuss the President's budget request for 
the DoD for Fiscal Year 2021. This is the agency tasked with 
defending our values, keeping America strong, free, and safe. 
Providing for the common defense is, in my judgment, our 
highest constitutional duty. It is a responsibility so great 
that it is enshrined in the Preamble of our founding document.
    Congress plays an essential role in ensuring full spectrum 
military readiness and the security of the American people. We 
hold the power of the purse, and it is this authority that 
funds the federal government, including DoD. While we do 
everything possible to work with the Department, and we take 
their views and concerns seriously, it is ultimately up to the 
Congress to determine how taxpayer dollars are spent on 
national priorities.
    This congressional will is expressed through our annual 
appropriations bills, and those are the law.
    As the Ranking Member of this Committee and a Member of the 
Appropriations Subcommittee on Defense, I was disappointed that 
the Executive Branch chose to substitute its judgment for that 
of Congress last month when it announced that it would be 
transferring funds out of DoD accounts.
    I expect we will hear more about that decision later today, 
but let me be clear--according to the Constitution, Congress 
alone is responsible for determining funding for the national 
defense.
    With that said, I am now going to turn to the President's 
request for the national defense budget, which is why we are 
here today. After several years of funding instability, this 
Administration has taken the steps to restore the readiness of 
our military and provide our troops with the tools and training 
they need.
    With President Trump's support, Congress passed legislation 
providing $685 billion for the Department of Defense in Fiscal 
Year 2019, $718 billion in Fiscal Year 2020.
    As a result of these increases, the Department of Defense 
has been able to rebuild key areas that were neglected under 
the previous administrations, such as procuring new equipment 
and ensuring military readiness, critical components of a 
strong national defense.
    The President's 2021 request continues to prioritize 
funding for key defense needs while adhering to the spending 
caps called for in the Bipartisan Budget Act of 2019.
    The Department continues to improve readiness and invest in 
modernizing our military for the future. This budget makes 
important investments in nuclear weapons, space and cyber. It 
advances the development of critical technologies like 
hypersonics, artificial intelligence, and microelectronics.
    This budget also prioritizes our service members with a 3 
percent pay raise, making sure we are not just investing in 
weapons and technology, but also in our men and women in 
uniform.
    While it is critical to fully fund the needs of the 
Department of Defense, we must also ensure taxpayer dollars are 
well spent, and I commend you, Mr. Norquist, and this 
Administration for completing its first full financial 
statement audit in Fiscal Year 2018 and recently completing its 
Fiscal Year 2019 audit.
    Both audits are strong steps in the right direction, 
ensuring transparency and fiscal responsibility within the 
nation's largest agency.
    Past administrations have made commitments to conduct this 
type of review, but the Trump Administration is the first to 
fulfill that promise.
    I further applaud you, Mr. Secretary, for conducting a 
comprehensive review of Defense-wide organizations we commonly 
know as the ``Fourth eState,'' where you identified nearly $6 
billion in savings for Fiscal Year 2021. Every single federal 
agency should mirror your efforts to eradicate waste and 
inefficiency.
    I look forward to hearing how you were able to successfully 
find these savings and your plans to continue such reviews 
going forward, as well as how Congress can support these 
efforts.
    And with that, Mr. Chairman, I yield back my time.
    [The prepared statement of Steve Womack follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairman Yarmuth. I thank the Ranking Member for his 
statement.
    In the interest of time, if any other Members have opening 
statements, you may submit those statements in writing for the 
record.
    And now once again, I introduce Deputy Secretary of the 
Department of Defense, David Norquist.
    You have five minutes to present your opening statement.

   STATEMENT OF HON. DAVID L. NORQUIST, DEPUTY SECRETARY OF 
              DEFENSE, U.S. DEPARTMENT OF DEFENSE

    Mr. Norquist. Thank you, Mr. Chairman.
    Chairman Yarmuth, Ranking Member Womack, distinguished 
Members of the Committee, I appreciate the opportunity to 
testify in support of the President's Fiscal Year 2021 budget 
request for the Department of Defense.
    Before I do, I would like to take a moment to recognize the 
two Marines killed Sunday in combat in Iraq. Please keep these 
men and their families in your thoughts and prayers.
    The men and women of the Department of Defense put their 
lives on the line every day for the safety and security of the 
nation. We are humbled and grateful for their sacrifice.
    To begin, let's consider the state of defense at the 
beginning of this Administration. DoD had been operating for 
five years under destructive spending caps which left the 
Department with significant funding shortfalls and resulted in 
the smallest military force since 1940, key munition shortages, 
low readiness ratings in key combat units, and an urgent need 
to rebuild our nuclear deterrent.
    At the same time, we were grappling with the new 
warfighting environment, given the reemergence of great power 
competition from Russia and China and the rapidly changing 
character of warfare. Future wars will be waged not just in the 
air, on the land, and at sea, but also in space and cyberspace, 
dramatically increasing the complexity of warfare.
    To address this we developed a new national defense 
strategy that shifted the Department's focus to the high-end 
fight. Thanks to President Trump's commitment to rebuild the 
military and a bipartisan effort in Congress, over the past 
three years, the Department received a significant funding 
increase it needed to implement the national defense strategy.
    As a result, the Department made important progress along 
the NDS' three lines of effort. For example, regarding 
readiness and lethality, the Department of Defense has 
increased the number of ready brigade combat teams by 33 
percent and raised the readiness of the Air Force's lead pacing 
squadron by 35 percent.
    We also restructured the Department around the new 
character of warfare. Working with Congress, we established the 
Space Force, elevated U.S. Cyber Command, and created the Joint 
Artificial Intelligence Center.
    Regarding our alliances, our NATO allies have increased 
their contribution to our collective security by $130 billion 
since Fiscal Year 2016.
    Finally, along the third line of effort, reform, the 
Secretary of Defense led a Defense-wide review that has 
identified aggressive reform opportunities that would result in 
over $5.7 billion in Fiscal Year 2021 savings.
    The Fiscal Year 2021 budget request is the next step in 
implementing the national defense strategy, and the focus is on 
all domain operations. It addresses the challenges of today by, 
first, sustaining readiness and keeping faith with our 2.2 
million military members and their families and, second, 
preparing for the challenges of tomorrow by recapitalizing our 
nuclear deterrence, strengthening homeland missile defense, and 
expanding our investment in critical emerging technologies, 
such as hypersonic weapons, directed energy, 5G, 
microelectronics, artificial intelligence, and autonomous 
platforms.
    At $740.5 billion for the national defense, of which $705 
billion is for the Department of Defense, this budget is 
different from the previous few years because the DoD top line 
if flat, with no growth for inflation. This meant that we had 
to make additional tough choices and major cuts in some areas 
in order to free up money to continue to invest in preparing 
for the high-end fight.
    In closing, although defense spending is sizable, it is at 
near record lows as a percentage of the economy and federal 
spending. Defense spending is now at 3.1 percent of GDP, down 
from 11 percent in 1953 and four and a half percent in 2010, 
and at 15 percent of federal spending, down from 57 percent in 
1952 and about 20 percent in 2008.
    This foundation of security, however, is what makes 
everything else possible. I appreciate this Committee's support 
for the men and women of our Armed Forces, and I look forward 
to answering your questions.
    [The prepared statement of David Norquist follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Yarmuth. I thank you for your statement.
    We will now begin our question and answer period.
    As a reminder, our Members can submit written questions to 
be answered later in writing. Those questions and Deputy 
Secretary Norquist's answers will be made part of the formal 
hearing record. Any Members who wish to submit questions for 
the record may do so within seven days.
    As we usually do, the Ranking Member and I will defer our 
questions until the end.
    I now recognize the gentleman from Texas, Mr. Doggett, for 
five minutes.
    Mr. Doggett. Thank you very much.
    And thank you, Mr. Secretary, for your service.
    I advised your office in advance last night of concerns I 
have about coronavirus.
    I represent Military City USA, San Antonio, Texas. My 
district is adjacent to Joint Base San Antonio at Lackland, 
where we have two planeloads of Americans evacuated from 
exposure to coronavirus.
    This afternoon or tomorrow the Trump Administration is 
apparently flying additional planeloads to San Antonio of 
people that have never been tested that are on the Grand 
Princess cruise ship, without a very clear plan of what happens 
to those who test positive once they get to San Antonio.
    While I certainly want to assist all Americans, my concern 
is protecting my civilian population neighbors in San Antonio, 
and of course, every one of our military service members.
    I realize that it is not the Defense Department's decision, 
though it is, indeed, an incredible decision that the Trump 
Administration has chosen not to test any of these people 
before they leave California.
    I realize that it is not the Defense Department's decision 
but the Trump Administration's failure to get San Antonio more 
than 75 lab tests as of today.
    I realize it is not the Department of Defense decision but 
a Trump Administration failure to provide San Antonio 
additional protective medical equipment for our professional 
medical people.
    But my understanding is that it is within your jurisdiction 
to decide whether those individuals who test positive for 
coronavirus must immediately leave any Defense Department 
property.
    Is that the position of the Defense Department this 
morning?
    Mr. Norquist. So, I appreciate the question.
    And, again, I understand and appreciate your support. It is 
our responsibility to help bring Americans safely home and 
quarantine them.
    So far what the Department of Defense has been is we 
function in support of HHS. We provide the rooms to their 
specifications that allow us to quarantine individuals. We work 
with HHS on where they go.
    I know the Secretary is in discussions with HHS about the 
concern that you have raised. The challenge that we face on the 
Department's side is severalfold. One is we have a very large 
force that we have to have prepared to fight tonight and a very 
relatively small medical community upon which to rely. And so--
--
    Mr. Doggett. And I understand all of that and certainly 
appreciate and agree with you. My only question is: is it the 
Defense Department policy as of this morning that if anyone who 
I think should have been tested before they ever came to San 
Antonio gets there and they test positive but are otherwise 
asymptomatic and do not need treatment, are they being 
compelled to leave Defense Department property immediately upon 
result of positive test?
    Mr. Norquist. That is my understanding of our current 
policy.
    Mr. Doggett. And you made reference to discussions between 
different parts of the Trump Administration. Has Health and 
Human Services, has Secretary Azar and his people with CDC, 
have they requested that the Defense Department make an 
exception to this policy for these evacuees who are positive 
but not symptomatic?
    Mr. Norquist. So I do not know in terms of in the last 24 
hours if there has been a request with regard to these.
    Mr. Doggett. I was told they did it on earlier planeloads, 
and I have not gotten any results of that. That is why I am 
inquiring this morning.
    Mr. Doggett. I do not know that on this plane request.
    Mr. Doggett. As you know, in San Antonio we are proud of 
the fact that we have some of the best military medical 
facilities in the world at Brooke Army Medical Center, that we 
refer to as BAMC; at Wilford Hall at Lackland. Is the Defense 
Department declining to permit anyone who has coronavirus from 
being treated in isolation in those military hospitals?
    Mr. Norquist. I do not know about those particular 
hospitals. In general, we have treatment facilities for if a 
DoD person is infected, but our hospitals are generally not set 
up and there are congressional laws that restrict and affect 
our ability to bring private citizens in, and so I would have 
to defer in terms of those.
    Mr. Doggett. If there is any law that you think stands in 
the way of treating these evacuees that have been forced on the 
city of San Antonio without good plans, without protective 
equipment, without the test having been done, I would really 
appreciate your office telling me what it is today.
    My understanding is it is Defense Department policy, and I 
respect that because I want to protect every service member so 
that they are ready to defend our country.
    But the problem is that moving evacuees who have 
coronavirus across San Antonio to the local hospitals and other 
unknown destinations, since they do not know where they are 
even going to put these people once they are forced off the 
military reservation, is something that risks community spread 
in our community.
    And none of these evacuees have been previously tested. 
They may be asymptomatic, but they could well be, as has been 
true of some of the earlier flights, they could be positive and 
transmit this virus to others.
    I would really appreciate your going back. I know our city 
has appealed. I believe that our Governor as well has raised 
this concern, to see if there is not a way to contain these 
people in the same hotels they have been sitting in.
    You have got some people that will be there today or 
tomorrow who probably are positive for coronavirus if the 
Administration had bothered to test them in California. They 
will be there already posing whatever danger they pose.
    The problem is when we start moving them all across Bexar 
County from one side of town to another and the danger that 
poses, and that is our great concern.
    I appreciate your leadership, and I would just appeal to 
you to go back and see if there is not a way to keep those 
individuals there without posing any real danger to our forces.
    Thank you, and thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from Ohio, Mr. Johnson, for 
five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And, Deputy Secretary Norquist, I appreciate you coming to 
talk to us today about the President's Fiscal Year 2021 Defense 
budget request.
    You know, as an Air Force veteran of nearly 27 active 
years, I applaud DoD's efforts to identify $5.7 billion in 
savings for Fiscal Year 2021 and to reinvest these savings in 
critical national defense strategy priorities, including 
nuclear deterrence, cyber and space, and technological 
developments.
    However, even though I applaud and support border security 
and the building of a border wall, I am concerned about the 
Administration pulling funds from DoD weapons programs to fund 
the construction of the wall.
    In Fiscal Year 2019, the Administration used reprogramming 
authority and a national emergency declaration, which I 
supported, to reapportion $6.7 billion to fund the border wall.
    Last month we learned that the Pentagon would be 
reprogramming $3.8 billion in Fiscal Year 2020 appropriations 
from various DoD weapons programs to fund the border wall.
    Having traveled to the El Paso sector of the U.S. Border 
Patrol, I wholeheartedly support strengthening our southern 
border, including building the border wall. However, I do have 
serious concerns with pulling funding from DoD weapons programs 
for its construction.
    I was particularly disappointed to see $360 million 
reprogrammed that was to be used for additional C-130J 
aircraft. The Fiscal Year 2020 National Defense Authorization 
Act specifically authorized funding for four additional C-
130Js.
    These additional aircraft would be invaluable in supporting 
missions such as the 910th Airlift Wing at Youngstown Air 
Reserve Station, which operates DoD's only large area fixed 
wing aerial spray mission, forcing the 910th to simultaneously 
support dual primary missions with only eight primary aircraft.
    There is no question that my colleagues and I are concerned 
about the diversion of military funds from these various 
weapons programs to fund the border wall, but there is a 
solution. We must not forget that Congress has a constitutional 
duty to appropriate funding, and it is Congress' failure to 
approve the necessary funding to secure our borders that has 
forced President Trump to divert funding from DoD to build a 
wall.
    Therefore, Congress must provide adequate funding for the 
border wall so that the Administration is not forced to pull 
these and other valuable DoD funds.
    So, Deputy Secretary Norquist, can you tell me how much 
funding for DoD's budget is geared toward future conflicts?
    You and I talked about that a little bit before we began 
the hearing.
    Mr. Norquist. So we invested significantly in future 
conflicts. When you think about our budget, you sort of divide 
procurement, which is readiness O&M, which is sort of the near-
term readiness, and the investment in today. You have the 
procurement, which is systems in field over the next several 
years.
    And then you have RDT&E, which is research, development, 
test, and evaluation, in this budget about $106.6 billion.
    Those are really the next generation of technologies. In 
nominal dollars, it is the largest RDT&E budget we have had, 
but I think what it reflects is even in a time of a lower top 
line, a tight top line, it is still a priority for the 
Department to be ready, not just for the challenges of today, 
but the important challenges of the future.
    Mr. Johnson. Yes, I agree.
    Trying to drill down just a little bit more, what are we 
doing to ensure funding for nontangibles, such as software, 
interconnected networks, artificial intelligence, and other 
critical weapon systems and platforms that you cannot 
necessarily touch and feel?
    Mr. Norquist. Right. This is a challenging area because 
everyone notices the ships, the planes, but behind it you have 
software, and software can have cybersecurity vulnerabilities. 
It also can make the biggest difference between two planes that 
look identical in terms of which one wins in the fight.
    So we have significant investments both in developing our 
work force, the capability to produce those types of 
technologies, as well as ensuring the cybersecurity aspects of 
those platforms and, in addition, working with the supply 
chain.
    One of the issues is helping secure the businesses that are 
suppliers to DoD so their technology is not stolen.
    Mr. Johnson. OK. You know, since Fiscal Year 2002, 2002, 
DoD has operated under a continuing resolution 14 times. Shame 
on Congress. Shame on my colleagues for not being willing to 
put forth a budget proposal so that we can fix this broken 
budget process and appropriate the money to DoD to provide our 
national security.
    So can you elaborate just a little bit? How do CRs affect 
the Department's ability to plan in the short and long term?
    Mr. Norquist. CRs are a significant problem. Let me walk 
just through a couple of issues.
    The first is they prevent new starts. So if we have a 
technology that the Department recommends and the House and 
Senate both agree and Republicans and Democrats think are 
valuable, we cannot start it on 1 October. I have to wait.
    So each year you give the other team three to four months' 
head start every time you are under a CR because you are 
delaying these new technologies.
    The same thing with production increases. There is a 
factory that is scaled to go from 50 to 100, but it has to 
operate at 50 inefficiently at extra cost to the taxpayer until 
the budget passes and allows them to go up to the 100 that the 
Congress authorized and appropriated and the Department 
supported.
    The real risk to this over time is the Department gets so 
used to it, it just moves its contracts to the spring and 
builds a 6-month in delay because it just assumes it will not 
get the budget on time.
    So in a government where speed and efficiency are always a 
challenge and you are trying to push, the CR pushes things to 
be slower and more inefficient and wasteful.
    Mr. Johnson. Sure. And we do not run families that way, and 
we do not run businesses that way. We should not run our nation 
that way.
    Thank you, Mr. Secretary.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from Massachusetts, the Vice 
Chairman of the Committee, Mr. Moulton, for five minutes.
    Mr. Moulton. Deputy Secretary, thank you very much for the 
critical work that you do to keep our nation safe and to serve 
our men and women in uniform. It is incredibly important.
    And I also want to commend two fellow veterans on this 
Committee, the Ranking Member, Mr. Womack, and my friend, Mr. 
Johnson, for really having the political courage, which is 
difficult these days, to raise the constitutional issues with 
what Mr. Trump has done to reprogram congressionally 
appropriated funds to pay for his border wall.
    I want to get into that a bit. Now, some Republicans have 
said that it is the Congress' failure to adequately fund the 
boarder wall that has forced President Trump to move funds to 
build his wall.
    Mr. Norquist, DoD has not identified building a southern 
border wall as a national security priority, although it has 
identified climate change as a national security priority.
    Now, I am a Democrat. I believe Congress has failed to 
appropriate funds to deal with climate change and climate 
security. If President Obama had unilaterally moved money from 
building Navy ships and C-130's and other defense priorities to 
address climate change, would that be an action that you would 
support?
    Mr. Norquist. Sir, you know,So I think that each President 
and each Congress has to work through these issues. The 
question for the climate change is under what authority. The 
thing that created this unusual situation is the Department of 
Defense has actually been given direct authority by Congress 
under Section 284 to build barriers along the wall.
    Typically we would not have legal authority to be involved 
in this business. It is normally a DHS mission.
    I do not know with regard to climate change. We certainly 
make our bases more resilient against----
    Mr. Moulton. So I can agree that you have the authority to 
build the wall if those funds are appropriated by Congress. But 
do you believe you have the constitutional authority to move 
appropriated funds from one account to another against the 
wishes of Congress?
    Mr. Norquist. So we have the authority under reprogramming 
laws passed by Congress that allows the Department of Defense 
to move money from one account to another.
    Now, traditionally we have done this with the consent of 
the Committees, and this is the issue that you are 
highlighting, which is legally it is only a notification, and 
so therefore, the Presidents have always had the ability to 
move this.
    But in practice we have done this as a notification, and so 
that is what creates the challenge.
    Mr. Moulton. And I would definitely agree with you that it 
is a challenge, a constitutional challenge, which is 
significant, and you agree.
    Mr. Norquist. It can be, yes.
    Mr. Moulton. The President has clearly identified 
construction of the southern border wall as a significant 
national security concern.
    How would you rank the construction of the border wall 
against DoD national security priorities, Mr. Norquist?
    Mr. Norquist. So homeland security has always been a part 
of our concern, and border security is part of national 
security. So when we get asked----
    Mr. Moulton. Do you rank it higher than building a 355-ship 
Navy?
    Mr. Norquist. We have to balance across a series of 
requirements, and so in this case we were asked and directed to 
support the Department of Homeland Security.
    Mr. Moulton. Right. But you are the Deputy Secretary. Would 
you rank it higher than building a 355-ship Navy?
    Mr. Norquist. Let me put it to you. When I was at the 
Department of Homeland Security, I would have. When I am at the 
Department of Defense, I tend to balance within the Department 
of Defense.
    But this is why the President and others who look across 
set priorities that we support.
    Mr. Moulton. Well, I serve on the Armed Services Committee 
as well, and Acting Secretary Thomas Modly told us that this 
reprogramming plan is, quote, ``not helpful.''
    Mr. Norquist. Yes.
    Mr. Moulton. Not helpful. So is President Trump or the 
Secretary of the Navy correct?
    Mr. Norquist. So the key here, and I think this is 
something that I should start by making clear to everyone. This 
is not how we would have asked to do this. It is not how the 
President asked to fund the wall. The President asked directly 
for funds. We, the Department, had supported that.
    What happened was in the law that was enacted in December, 
it left the authorities with the President to make the move, 
but only if it were done within DoD accounts. And so while some 
people supported the wall and some did not, the compromise left 
this mechanism in place.
    So when it came to use, the question was to try and find 
sources that supported that.
    Mr. Moulton. I understand the President put you in a 
difficult position, but the bottom line is that we are supposed 
to follow the Constitution, and I think that should be 
important.
    You know, China began construction of its Great Wall in the 
7th century BCE. More recently, Chinese National local 
government spending has been focused on artificial intelligence 
and other advanced capabilities, some of the same things that 
you mentioned in your change in the focus of our budget.
    You know, it looks to me that about 6 percent of the total 
funding that you have dedicated to the border wall is what we 
are investing in AI, and that compares to tens of billions of 
dollars that China is investing in artificial intelligence.
    Who is right?
    Mr. Norquist. So, the Chinese have put a significant 
investment. The Department is trying to grow its capability.
    One of the issues is we have been investing there, but we 
have to build out the capacity and the skill set to make sure 
we use that money wisely.
    I would certainly like to invest more over time as we grow 
the skill of the work force and the projects that would sustain 
those initiatives.
    Mr. Moulton. Well, I would just point out that while we are 
waiting for that to grow over time, China is beating us, and we 
need to catch up.
    Mr. Norquist. China a major challenge on these.
    Mr. Moulton. Thank you, Mr. Secretary.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from Oklahoma, Mr. Hern, for 
five minutes.
    Mr. Hern. Thank you, Mr. Chairman, Ranking Member Womack, 
and Deputy Secretary Norquist for being here today.
    It is an important hearing that we are having, and I would 
like to find it says the House Budget Committee's third meeting 
where the Democrats insult the President's budget to no end 
without offering their own budget, as they are required to do 
by law.
    And I just want to read this because the Vice Chairman made 
a comment about the Constitution. This is what is really 
defined in the Constitution. Article I, Section 8 gives the 
power of Congress to lay and collect taxes, duties, and 
imports, and excises. The Constitution allows Congress to tax.
    So we are sitting here talking about a budget that the 
President put forth his constitutional duty that the House has 
not done, and we just need to remind ourselves what the 
Constitution actually says.
    So let's establish a timeline here. Before President 
Trump's election, the Department of Defense has never performed 
a full financial audit. Trump was elected, delivered on his 
campaign promise, and the largest audit ever undertaken by the 
federal government was completed.
    In fact, you all recently completed a Fiscal Year 2019 
audit as well, and President Trump likes to call this the 
promises-plus. Both audits are proven steps in the right 
direction ensuring transparency and fiscal responsibility 
within the nation's largest agency.
    The Department closed more than 500 notices of findings and 
recommendations issued in 2018 audit, cleaning up our books, 
and ensuring that we have a lean, transparent, and robust 
Department of Defense is exactly how we achieve peace through 
strength.
    My questions are and I think we can all agree that the 
Pentagon conducting financial audits is a positive move for a 
country. So, Deputy Secretary Norquist, can you explain to the 
Committee how the audit findings are driving change at the 
Pentagon and provide some specific examples?
    Mr. Norquist. I would be delighted to.
    And, again, thank you and thank this Committee for your 
emphasis and support of the audit.
    So the audit has driven change in a number of ways. The 
first is just in savings, right? When we did the audit, we 
discovered where we do inventory. The audit is not just a 
paperwork train. They go and they open warehouses. They look at 
supplies. They pull out samples, and they test them.
    And so we found places where there were items in inventory, 
many times known to the local but not across the services 
because it wasn't in the data base.
    That freed up $167 million worth of supplies. Put those 
back into inventory; able to close that requirement. Some of 
these were items people were waiting on back order for. They 
did not know that a different base already had it, and they 
could have had access to it. Immediate savings there.
    We have had other places where we have been able to 
automate using BOTs to save manual labor as we go through this 
process.
    But I think part of the addition to those savings, which 
are substantial as we go through the reforms, is the long-term 
benefit, which is private sector firms have access to timely 
and accurate data, and they use it to drive decisionmaking.
    In the Department of Defense we are building out our data 
analytics capability as we have this, and this lets us run 
Defense Logistics Agency more efficiently, allows to make 
better use of this in decisionmaking on property and other 
items. So a significant benefit to the Department.
    I appreciate the Committee's support. It is driving both 
near-term savings and long-term reform.
    Mr. Hern. Thank you.
    In recent years, Iran and other enemies of the United 
States have been investing heavily in building cyber defenses 
and cyber attack capabilities. I saw that the President's 
budget calls for almost $10 billion for offensive and defensive 
cyber capabilities, which obviously is great for our nation.
    In a global, interconnected world, it is becoming ever more 
important to invest in safeguarding our DoD networks and 
information systems. How does this budget build on the progress 
made in the military cyber operations?
    Mr. Norquist. So it does three things. First of all, it 
strengthens Cyber Command, both their offensive and defensive 
capability, and they are certainly the lead for this.
    The second is it gives us visibility over our networks and 
allows us to be stronger in defending.
    In addition, we are working with our companies and to the 
supply chain through what we call CMMC to help the vendors who 
work with the Department protect the technology that they have 
from China stealing it or from cyberattacks.
    Mr. Hern. Thank you.
    And just in my remaining minute here, could you compare the 
President's budget to the current Democrat budget for this 
fiscal year?
    Mr. Norquist. I am not familiar with the Democrats' budget.
    Mr. Hern. What?
    So you know, as we go forward, I hope that my colleagues 
will be as ever critical of the fact that we have not produced 
a budget as they are about the President's budget that he has 
produced.
    There is a lot of talk about constitutionality here, as I 
read Article 1, Section 8, Clause 1, the very first power we 
are supposed to be doing in Congress, and we are woefully 
failing at that job.
    I appreciate you being here. I appreciate all of the hard 
work that you have done since you have been at DoD, and it is 
what Americans want. They want good use of taxpayer dollars.
    And thank you so much for all that you do.
    Mr. Norquist. Thank you.
    Mr. Hern. I yield back, Mr. Chairman.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentleman from New York, Mr. Morelle, 
for five minutes.
    Mr. Morelle. Yes, thank you, Mr. Chairman and the Ranking 
Member, for holding this hearing today.
    I certainly thank you, Deputy Secretary Norquist, for being 
here today.
    As I think we have identified, the Defense budget is 15 
percent of all federal spending, and that encompasses a vast 
array of programs that the nation depends on for stability, 
resiliency, and to continue to be a leader on the world stage.
    So with that much of our federal spending, obviously there 
is a great deal to talk about, but I would like to spend my few 
moments on a topic both critical to the nation and, frankly, 
important and significant to my district in Rochester, New 
York, and that is the industrial base or our nation and whether 
or not we can continue to meet our defense needs.
    DoD relies on a wide ranging and complex industrial base 
for the products and service-enabled warfighting capabilities. 
The U.S. military is respected worldwide, but I am concerned 
the industrial base is beginning to fall behind in the United 
States, and we need to make significant investments to ensure 
that the industrial base and our supply chain are prepared to 
meet the nation's challenges.
    I have worked with a number of DoD officials who are 
focusing on this effort, and I appreciate that, and I want to 
make sure we continue looking forward to meet that need.
    So could you just briefly, because I do have a few 
questions and I know we are short on time, but if you could 
just comment on the industry base supply chain, what work you 
think needs to be done to ensure we are preparing our nation's 
defense capabilities.
    Mr. Norquist. I think as you highlight, the industrial base 
is absolutely essential. We do not build the airplanes, ships, 
tanks, and planes. Private citizens and private companies 
assemble those and build those for the American taxpayer. They 
are essential to our success. Their quality is what makes our 
force competitive on the battlefield.
    We work very closely with industry parties to signal where 
we are heading so they can invest in the right future 
technologies. Part is helping them, as I mentioned before, 
secure themselves so their technology is not stolen by 
competitors.
    But these investments are essential to our long-term 
success and their health. And, again, competition is essential 
to our long-term success.
    Mr. Morelle. So are you concerned at all with the supply 
chain interruptions?
    Have you seen potential threats to the supply chain in the 
industrial sites?
    What steps is the Department taking to address those?
    Mr. Norquist. So Ellen Ward from Acquisition and 
Sustainment is a lead for this. They are focused on following 
the supply chain, understanding both the potential for foreign 
technologies or equipment, such as Huawei, to make sure that 
that does not enter the supply chain.
    We are also worried about the security of the companies, 
making sure their information is not disrupted, but making sure 
we can follow and secure our supply chain is a key part, and we 
have a number of initiatives they are working on to do that.
    Mr. Morelle. And I would like to continue that to partner 
with folks to make sure that we continue to support that.
    I also wanted to talk just a little bit about the longevity 
of the skilled work force. I am blessed in Rochester, a long 
history with Kodak, Xerox, Bausch and Lomb and dozens and 
dozens of other innovative technology companies for decades 
have prepared a high skilled work force.
    But obviously, the nation's technical work force is 
shrinking, particularly with retirements due to Baby Boomers 
hitting retirement age.
    Can you tell me about the steps you are taking along with 
regard to work force development so it sort of aligns with the 
supply chain and industrial base?
    But it is a little different, and do you have specific 
initiatives within the Department to address that?
    Mr. Norquist. So we do, and let me highlight one of them 
within the science and technology areas. We have a $100 million 
investment in STEM because when you look at the areas where 
technology is heading and the type of investments we need, we 
have work force education and outreach programs to help develop 
that work force, recruit that work force and keep it in the 
Department of Defense because we will continue to depend on 
those technologies and those skilled people.
    Mr. Morelle. Finally, I know that while sensitive materials 
are all made in the United States, there are some commoditized 
products, I think, that come overseas in the Defense supply 
chain.
    Could you just comment on what impact, if any, the COVID-19 
is having and what steps you are taking to address that?
    Mr. Norquist. So we are looking at that. Luckily, we do not 
depend on very much that comes directly out of China because of 
the way the Department of Defense is structured, but we are 
concerned as it spreads to other countries, allies and 
partners, and what the effect of technology and production 
disruptions would be.
    For example, there is an F-35 facility in Europe, and so 
the question is: do those production schedules stay on time?
    Mr. Morelle. Yes. Do you have a task force? Have you 
developed something to look at those?
    Mr. Norquist. So again, Ellen Ward, Command S, she is the 
one who is looking at those. She and I talked about this the 
other day.
    So far in most places there has been very little disruption 
to date, but if this thing continues and expands, then we will 
potentially see some issues, and we need to stay on top of 
those.
    Mr. Morelle. Thank you, Mr. Secretary.
    I yield back my time, Mr. Chairman.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentleman from Missouri, Mr. Smith, for 
five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, Deputy Secretary, for being here today.
    Today marks 36 days until this Committee needs to pass a 
budget. I have always thought for some time that the thought of 
this Committee doing their job and preparing a budget and 
passing it was a bipartisan issue.
    Last week, Mr. Chairman, it was proven that it is a 
bipartisan issue, and I was very pleased to see that 17 of your 
Democrat colleagues and my colleagues sent you a letter 
requesting that the Budget Committee does their job and 
presents a budget, passes a budget.
    And I would like to offer that into the record, Mr. 
Chairman.
    Mr. Chairman?
    Chairman Yarmuth. Yes?
    Mr. Smith. I would like to offer this letter that was 
submitted to you by 17 Democrat Members in regard to passing a 
budget.
    Chairman Yarmuth. Without objection.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Smith. Thank you, Mr. Chairman.
    I do want to highlight a couple provisions within this 
letter. I think it is pretty important.
    It says, ``Producing an annual budget is a necessary first 
step toward reducing the skyrocketing deficit, and that the 
American people cannot afford for the Budget Committee to 
abandon its responsibility to product a budget,'' end quote.
    They added the American people need more than just spending 
limits, that a budget provides a framework for Congress to 
review our country's fiscal state.
    I could not have said it better myself. This is a time that 
I agree wholeheartedly with these 17 Democrats. It is 
unfortunate that the last few weeks we have heard so much 
criticism of the President's budget, when various cabinet 
Secretaries and Deputy Secretaries have come into this room. 
They have criticized the President's budget, but yet they have 
not even prepared a budget for themselves.
    We have the President's budget, which the President has 
filed every year according to his obligation. The Democrat 
majority has yet to file one budget since they have been in 
power, last year or this year.
    The Republicans, even though we are not in the majority, we 
have a budget. So if you do not like the President's budget, 
feel free to use Republican Study Committee budget. It is just 
an option.
    Nancy Pelosi has said it numerous times, that a budget is a 
statement of your values. Show us your values.
    I just repeat that same comment to Speaker Pelosi and the 
House Democrats. Let's see your budget. Show us your values.
    Unfortunately, I think they would probably bankrupt the 
country if they showed us their values, and that is why they 
are not doing a budget.
    A budget also leads where an uncertain appropriations 
process, where it is more likely that there will be a continued 
resolution in September.
    Deputy Secretary, what does a continued resolution do to 
the military?
    Mr. Norquist. A continuing resolution is very disruptive to 
the military, and I will just use an example of a depot where 
you have got a work force. They can see that there is a demand 
signal coming, but they do not know whether to hire more people 
and increase their capacity for the work that is coming or 
whether to wait because there may be a CR, and that work may 
wait three or four months.
    And so the effect for the Department is disruptive, but the 
disruption to the men and women out there who work in these 
companies and who respond to these demands in those, they are 
the ones who are not getting their jobs. And then the 
Department has a delay in the maintenance of our equipment 
because of that disruption in those companies.
    Mr. Smith. I totally agree. By not planning ahead, it 
clearly hurts our troops, and it is because Congress is not 
doing their job in passing a budget, going through the regular 
appropriations process.
    Hopefully we can get our act together.
    Now, correct me if I am wrong, but since President Trump 
was elected, he has invested in rebuilding our military. He has 
secured nearly $2.2 trillion in funding in his first three 
years in office, destroyed the ISIS caliphate bringing down its 
leader and saving countless American lives in the process, and 
he has stood up for freedom across the world.
    Taking that into consideration, would you say that our 
troops have the resources they and their families need more so 
than they did four years ago?
    Mr. Norquist. We are in a very different place than we were 
in four years ago. The readiness of our forces is up. The 
quantity of munitions they have is up. The training level is 
up.
    And on top of all of that, the investment and preparedness 
for future conflicts are also being taken care of and 
addressed.
    Mr. Smith. Thank you, Deputy Secretary.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from California, Mr. Peters, 
for five minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    I did want to make some comments about this budget 
proposal, but I do want to say that one shining light in this 
is the funding for the congressionally directed fix for 
military survivors suffering from the widow's tax.
    I have worked on this for years, and I would like to offer 
a note of gratitude to Chairman Yarmuth for his leadership on 
this issue, which was very important to him and a priority.
    Two things. One is, you know, I get this notion that my 
colleagues on the other side are concerned about us not having 
a budget. I would note that we went through an appropriations 
process, and we came up with a deal, and the House approved it. 
The Senate approved it. The President signed it, and he went 
based on a phony emergency declaration and reprogrammed $6 
billion on his own to a wall.
    I hope my Republican colleagues will join me and will take 
that outrage they have over the congressional purview over the 
budget and join me and make sure that that kind of stuff does 
not happen again.
    This is not a kingdom. It is a divided government. Congress 
has its role, and the appropriations that we made deserve to be 
honored, and I hope that next time this happens that my 
colleagues who express such concern about Congress' power will 
stand with me to make sure that those are observed.
    And then, Mr. Secretary, I also did want to note, too, that 
I, too, appreciate the role of the private sector in providing 
us the equipment that is so important to our mission and to our 
warfighters.
    I have to say that in that light, it is disappointing to 
see how some of these cuts have been proposed: a Navy TAO oiler 
that we need to sustain the operational tempo and have our 
sailors meet their missions in the Pacific and elsewhere; a cut 
cutting unmanned systems, like the MQ-9 or MQ-1, without notice 
to the company, by the way.
    At the same time the Army is trying to develop the future 
of our capabilities, but we do not have that yet, and so today 
we need to continue that continuity, and it does a great 
disservice to the partners we have in the private sector that 
these continuities are not maintained.
    And as far as I know, the 12th century technology of a wall 
is not reflected in the quadrennial defense review or any other 
military priorities.
    I did want to ask a question though about ships. I agree 
with the President and others that we need to obtain a 355-ship 
Navy, but it is not just getting to 355. It is about getting 
the 355 with the right ships, ones that combat our adversaries 
with new technology and lethality.
    How do the cuts in this budget assure success and assure 
that efficiency is driving the process instead of what appear 
to be politics?
    Mr. Norquist. So, first of all, there are two sets of 
trades going on within the shipbuilding budget. The first is 
the Navy leadership, both military and civilian, looked at the 
challenges with getting the current fleet to sea and realigned 
additional money on O&M and to maintenance and repair so that 
the fleet they have is ready to go.
    That required them to make some tradeoffs with regard to 
ship construction, as did the fact that because we do not have 
inflation in the budget, we are down about $13 billion. That 
has created some tight tradeoffs.
    What we are looking at going forward with the Navy, and the 
Secretary has directed me to lead a study working with the Navy 
and others, is as you point out, what is the right shipment.
    Is it necessarily the case that we keep building the exact 
same designs we have today or as technology evolves and the 
ships of the future and changes evolve, how do we survive in an 
Anti Access/Area Denial that we may see in the Pacific?
    So we will be doing that analysis. We will run them through 
war games and simulations between several different designs and 
be able to present that and go through that in the spring or 
early summer.
    Mr. Peters. I look forward to that. It is nice to have 
dreams of new technology being used for the national security.
    In the meantime, we have actual missions to complete, and I 
think the abruptness with which some of these changes are made 
is not of best service to the nation and to our warfighters.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentleman from Tennessee, Mr. Burchett, 
for five minutes.
    Mr. Burchett. Thank you, Mr. Chairman and Ranking Member.
    Thank you, sir, for being here.
    I know you have already answered this, but if you could 
just break it down a little further, how does the instability 
of the budget process affect the DoD?
    We have done 14 continued resolutions.
    Mr. Norquist. So I think one of the things to look at is it 
is maybe a way to understand it. When I have meetings, we had 
one year where we had the appropriation on time, and I had a 
meeting, and people said, ``You do not need to tell us what to 
do under CR. You have to tell us what to do if it actually 
happens on time because so few of them had exposure to it.''
    In fact, I looked over my work force, and a number of them 
have never really got the exposure to what a normal process 
looks like, that you and I and others who have been in this 
business used to take for granted.
    The challenge then becomes the system builds that delay 
into its process, and think about it. We bring on 270,000 or 
some new people each year to the Department of Defense who 
require training. This disruption on when the training is going 
to occur, on the funding levels, those all create effects 
throughout the organization.
    And you want to make sure that the Department is keeping 
pace with the challenges. So when there is an increase in 
production for a system, we do not want it to wait three, four, 
five months.
    And so those types of disruptions to our planning are bad. 
Those are disruptions to the depots and the work forces out 
there are disruptive, and again, also it just consumes time and 
energy of people focusing on the incremental contracting when 
we could have more efficiently contracted in one single step 
for the entire year.
    Mr. Burchett. I am wondering how that would affect my folks 
back home, our Reservists at McGhee Tyson Airfield in weighing 
what they have there.
    Mr. Norquist. Well, one of the things that I think happens 
to the Guard and Reserve that is particularly destructive is we 
often do not get a CR for the whole time. We get it for a few 
months, and then another month, and then another week.
    Well, on those Saturdays is a Guard mobilization training, 
and it is Friday afternoon, and we have to tell the Guard do 
you show up on Saturday or not. We do not know if there is 
going to be a shutdown.
    Well, for those who drive any length or distance, they are 
driving while the government is not knowing whether it is going 
to be open and may drive several hours to their training and 
then be told to turn around and drive back home.
    So the multiple CRs in a given year has a really disruptive 
effect on the Guard and the Reserve when they are trying to 
show up for mobilization dates.
    Mr. Burchett. OK. How could we as Congress be more helpful 
in ensuring that the Department is successful in their 
financial transparency?
    Mr. Norquist. So I think with regard to the funding, the 
CRs getting to regular appropriations on time.
    With regard to transparency and the audit, there are a 
couple of things that really make a difference.
    First of all, it has been the vocal support of the Congress 
for the audit. I came back to the Department of Defense in part 
because the President had committed to audit the Pentagon for 
the first time, and I wanted to be part of that.
    We would not have been there without you and other Members 
of this Committee who have emphasized the importance of that.
    The second thing is there are investments in the budget, 
and they are not in the dramatic areas. They are in business 
systems, to get rid of all the older business systems and 
replace them with modern, compliant ones.
    Often those do not fare as well in a budget process because 
they are not dramatically or interesting, but they are 
important to the efficient operations of the budget.
    So those sorts of factors matter as well. Any of those 
areas is a big step forward, and again, as always, timely and 
robust funding is helpful.
    Mr. Burchett. Thank you, sir.
    Mr. Chairman, I yield back the remainder of my time.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentleman from Virginia, Mr. Scott, for 
five minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, can I ask you a question? Last year did we 
pass a 2-year budget?
    Chairman Yarmuth. We did pass the Bipartisan Budget Act of 
2019, which provided for two years of budgeting.
    Mr. Scott. And are we in the second year of that budget?
    Chairman Yarmuth. We are considering the second year of 
that budget right now.
    Mr. Scott. We have already passed the budget.
    Chairman Yarmuth. That is correct.
    Mr. Scott. Thank you.
    Mr. Secretary, thank you for being with us today.
    I have a strong interest in shipbuilding, obviously from 
being from Southeast Virginia. The Virginia class submarines, 
we expect to build two this year. The budget only includes 
enough money for one.
    How are we going to get to a 355-ship Navy if we are 
cutting the budget for shipbuilding?
    Mr. Norquist. So the challenge we have, as I discussed 
before, is twofold. One is the Navy invested in the operating 
maintenance to keep their fleet going, and we have the flat top 
line which drives it down.
    So that creates some initial challenges. The Virginia class 
submarine, let me just be clear, is a very valuable submarine. 
It is the type of system that we have invested in in the past 
and intend to continue to buy well into the future as a key 
platform for the Pacific fight.
    But as we start to head to 355, we need to look at not 
necessarily the submarines, but in other areas. What is the 
right mix of platforms to be ready for that future challenge?
    Mr. Scott. Well, one of the ways we save money is to make 
multiple ship purchases so you can save money. Have contracts 
been signed for two ships this year?
    Mr. Norquist. I believe there is a contract signed, and it 
is like a nine-plus one. I forget the mechanics of it that sets 
up the multi-year.
    Mr. Scott. And the shipyards are acquiring materials and 
parts and things like that on a multi-ship basis. Are they not 
assuming that there will be two ships?
    Mr. Norquist. I am not familiar with the use of the 
contract. My understanding was there was an expectation there 
was an option in one year and the other years were two a year, 
but I would have to defer to our acquisition experts in the 
Navy.
    Mr. Scott. In terms of the infrastructure at our public 
yards, about three years ago we developed a shipyard 
infrastructure optimization plan. Maybe I missed something, but 
I did not see any major projects as part of that plan in the 
budget.
    What is the plan to actually fulfill the optimization plan?
    Mr. Norquist. Let me check with the Navy and get you the 
answer on that for the record.
    There is one thing I would like to highlight though if you 
could. I understand the importance of how do you get to where 
we want to go in the Navy.
    One of the reforms that we have introduced in the budget is 
normally when you spend money in the Navy, you obligate it, and 
not all of it is disbursed. You may have a contract, not 
necessarily a shipbuilding contract but one that you get under 
price. You were able to end it early. You are not happy with 
the vendor's performance. You cancel it. That money just 
normally goes back to Treasury.
    What we have proposed for the Navy is that money goes into 
ship construction, Navy, so that the Congress can authorize it 
for additional ships.
    Our view is twofold. One is it is an important future for 
the nation, but the other is it encourages better behavior of 
individuals in their spending, in the Navy, if they can 
understand that the dollars they save are going to the Navy of 
the future.
    So I would ask you to look at that provision. We would 
appreciate your support, but we think it is going to help 
strengthen and expand the capacity of the shipbuilding yards.
    Mr. Scott. Thank you.
    You are aware that Norfolk, Virginia is vulnerable to sea 
level rise.
    Mr. Norquist. Yes.
    Mr. Scott. What is the DoD's latest assessment of the 
challenge of sea level rise to Norfolk?
    And what are we doing about it?
    Mr. Norquist. So, again, I do not have the specifics of 
Norfolk, but we have looked along the East Coast and other 
areas at what resilience we have to put in for bases so when 
there is high water and storms we do not lose many of our 
bases, particularly the Naval ones, which are right along the 
waterfront, and being able to make sure they survive storms and 
high water areas.
    And so we have worked on those, and each of the new 
construction efforts has to meet the standards, the enhanced 
standards, for that resilience.
    Mr. Scott. Are you doing something about the present 
infrastructure?
    Mr. Norquist. I understand that we are in those areas.
    Mr. Scott. OK. And you asked the question on budget 
challenges that you talked about because of the coronavirus. 
You talked about the soft supply chain. Are there other 
challenges that may be occurring because of the virus?
    Mr. Norquist. We will have to see in terms of--we have 
taken appropriate measures at the Department of Defense. A lot 
of this is basic hygiene. It is hand sanitation. It is keeping 
distances. It is teleworking if you need to have that set up.
    We are going to have to look and see if it begins to expand 
and spread, what we need to do to keep those production 
facilities up and running and what measures are additional ones 
we need to take.
    Mr. Scott. And how that will affect the budget?
    Mr. Norquist. And how that will affect the expenditures in 
the budget, right.
    Mr. Scott. OK. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentleman from Pennsylvania, Mr. 
Meuser, for five minutes.
    Mr. Meuser. Thank you, Mr. Chairman.
    Thank you, Deputy Secretary.
    I will yield 30 seconds or as much time as he needs to 
Ranking Member Johnson.
    Mr. Johnson. Thank you.
    I appreciate the gentleman yielding.
    I just want to make a point of clarification. I might have 
misunderstood. Mr. Chairman, we have not passed a budget 
resolution out of this Committee. We have not passed a budget 
out of Congress. We did not pass one last year, and there is no 
plan to pass one this year.
    Out of desperation we passed a spending plan, but we have 
not passed a budget. I just want to make sure that members and 
those across America that might be looking at this understand. 
This Committee has not passed a budget.
    I yield back.
    Mr. Meuser. Thank you.
    Deputy Secretary, a colleague seemed to insinuate a little 
earlier that we are sacrificing our Navy for border security. 
Are we sacrificing our Navy for border security?
    Is it one or the other?
    Mr. Norquist. It is not one or the other. We are investing 
in both. We have a responsibility as Department of Defense to 
support and protect the nation across a range of threats.
    DHS has the lead, and we are in support on border security, 
but we support on homeland, and we are making investments in 
shipbuilding. Both of these are our priority.
    Mr. Meuser. Has the size of the Navy grown under the 
current Administration versus the previous Administration?
    Mr. Norquist. Yes. The size of the Navy has grown. I think 
it started on 275. It is up to 290. It is on its way to 306.
    Mr. Meuser. While we are also increasing border security.
    Mr. Norquist. Correct.
    Mr. Meuser. You were CFO at Department of Homeland Security 
under Tom Ridge. And would you say that 100,000 undocumented 
people entering our country illegally every month is a threat 
to our country?
    Mr. Norquist. The migration waves that they saw before they 
started the construction of the wall in this Administration 
were dwarfing the numbers that we had seen. Even bipartisan 
Republicans and Democrats who had worked at Homeland were 
commenting on the fact that, yes, it is a tangible emergency.
    I went down to the Rio Grande Valley, met with the border 
patrol agents there. Their comment to me with regard to the 
wall was, ``It works.'' They see the manifestation and its 
effect, and they are very appreciative both for that, as well 
as for the men and women of the National Guard who have 
deployed down there and supported them. They referred to them 
as a game changer.
    Mr. Meuser. Even though the illegals and the number of 
undocumented people that were crossing our border back when you 
were the CFO was far less, a very bipartisan bill passed known 
as the Secure Fence Act, which seemed to make a lot of sense to 
both Democrats and Republicans at the time.
    Yet any sort of fencing or border security today seems to 
catch the wrath in a very partisan manner.
    Mr. Norquist. Correct. During the previous time, we had 
significant interest from Congress, bipartisan votes for the 
Secure Fence Act, expecting the Department of Defense to 
continue and invest in hundreds of miles of border fencing and 
barriers along the Southwest border.
    Mr. Meuser. The American people or anybody with a memory 
gets very confused over that.
    So I have got this question for you please. How does this 
budget request ensure that U.S. maintains its competitive edge 
over China and Russia, particularly in space and cybersecurity?
    Mr. Norquist. So this budget does a significant investment 
in space and cyber. One of the things we have to realize is the 
emphasis China is placing on technology. They are looking into 
these two new demands.
    So one of the things we talk about is everyone used to 
think the military fights on the air, land, and sea. You have 
the Army, Navy, and the Air Force.
    And what we have seen from our adversaries and rivals is an 
emphasis on space and cyber as a way to break down our 
capabilities.
    The standing up of the Space Force was an essential step in 
not just increasing the funding, but providing the training, 
the doctrine, and the structure behind understanding what the 
conflict will look like in space and how to prepare, as was the 
elevation of Cyber Command.
    We have invested in both of those. Some of the space stuff 
is on the classified side, but these have been priority areas 
for this Administration throughout its tenure because of the 
shift to the new domains and the ability to make sure we can 
function across all domains.
    Mr. Meuser. Excellent. The President recently signed with 
the Afghanistani a peace deal which will phase down troops in 
Afghanistan, as you know, after two decades of strong U.S. 
presence. How much will this peace process, and perhaps other 
drawdowns, save Department of Defense?
    The Administration targeted diplomatic reforms that would 
help to strengthen certain areas, and all the while drawing 
down in the Middle East and areas where we feel we no longer 
need that presence.
    What sort of savings can you anticipate?
    Mr. Norquist. So it depends on how far the process goes. I 
think that what we have seen is what we have going on, is the 
best path to a lasting peace in Afghanistan is a negotiated 
political settlement among the Afghans. This makes that 
possible.
    If that continues to go well, you know, we are headed down 
to 8,600. We could go further below that if this goes further.
    There are potentially billions of dollars' worth of savings 
that we would achieve through reduced need for operations, 
reduced need for a presence. That all depends on how this plays 
out properly.
    And you know, we are using a condition-based process, but 
this Administration has put an emphasis on being able to 
emphasize and reprioritize to the China front and to Russia, 
and these are supportive of that vision.
    Mr. Meuser. Thank you.
    Chairman, I yield.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentlewoman from Illinois, Ms. 
Schakowsky, for five minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    And thank you, Deputy Secretary Norquist.
    I have been long interested in the cost of private military 
contractors, and in a 2017 report by the Department's Cost 
Assessment and Program Evaluation Office, it found that DoD's 
civilian employees usually cost less than private military 
contractors.
    An additional study by the Sustainable Defense Task Force 
estimated that the Department could save over $20 billion per 
year by scaling its contractor work force by just 15 percent.
    So I am just wondering your view of this and what steps, if 
any, that the Department is taking to assess contractors and 
cost savings.
    Mr. Norquist. So this is an important area to look at, the 
balance between what we have in terms of federal employees and 
contracted support, and it depends, again, on the mix of skills 
that you need.
    I will just use a simple example, one from my previous job, 
which is in the audit. Originally in the federal government we 
had very little in DoD audit experience. All of the experience 
was on the contractor side. So we relied heavily on vendors who 
understood the accounting standards and experience.
    Over time we have reduced that dependence on them and 
increased the number of federal employees.
    Ms. Schakowsky. Is that a goal?
    Mr. Norquist. The end of the shift is not a goal. The goal 
is to make sure that if it is a function best done by the 
federal government, a perennial function that is something you 
need stability in, we then do it with federal employees.
    If it is a specialized skill, something that rotates in and 
out, you do not have constant demand, we tend to look to 
contractors because under those formulas, they are less 
expensive.
    Ms. Schakowsky. Do you think you have the balance right 
now?
    Mr. Norquist. On the audit side, I think we still have a 
bit to go. In the others, it depends on each program. It is 
something we always have to relook because you cannot assume 
that the balance you had last year or two years ago or five 
years ago is the right one going forward.
    Ms. Schakowsky. Well, on another subject, according to the 
Department's 2019 report on effects of change in climate, the 
Department of Defense said this, quote, ``The effects of 
changing climate are a national security issue with potential 
impact to the Department of Defense mission, operations, plans, 
and installation.''
    And the National Security, Military, and Intelligence 
Panel, a second time, on Climate Change, which is made up of 
current and former defense and intelligence officers, released 
a report last month that found, quote, ``Each region of the 
world will face severe risk to national and global security in 
the next three decades,' ''' unquote as a result of global 
climate change.
    So I want to ask you what the Department is doing to adapt 
current and future operations to address the impact of climate. 
If you could just give me even just one example of what the 
Department is doing to address this.
    Mr. Norquist. Sure. So I will give you two. The first is on 
the systems we field, on weapon systems, we have to be able to 
operate in everything from the desert to the arctic. So with 
temperature swings, we have to build systems that have that 
range of capabilities, deploy them and function in Alaska and 
bring them down into a desert area.
    The second is the facilities and the bases. And so when we 
have bases, they get affected, you know, by hurricanes or other 
storms. We need to make sure that they have the level of 
resilience necessary to survive the storms that they are 
facing. That minimizes the damage and the repair on the other 
end.
    So there has been a significant focus on those standards 
and bringing facilities up to those standards.
    Ms. Schakowsky. And what can Congress do to support the 
Department's effort to combat and adapt to climate change?
    Mr. Norquist. I think when you look at the investments we 
make in our facilities, those are always valuable, and when you 
look at the range of technologies that we are trying to build 
to be able to operate in this, it is important for those 
investments as well.
    Thank you.
    Ms. Schakowsky. So are you seeing a decrease in the amount 
of carbon emissions within the Department of Defense?
    And what kinds of things can you do to actually help reduce 
global warming?
    Mr. Norquist. So the Department looks at a range of energy 
sources and tries to develop a breadth of them, and again, we 
tend to focus on the resilience, which is what is our ability 
to keep the facility up and running when it needs it. How do I 
have those power supplies?
    Now, some of them if you use natural gas, then of course 
you had a very different amount of carbon or zero that you are 
producing compared with other sources.
    We look at those ranges of technologies and we attempt to 
adopt them in the way most heavily we focus on the facilities.
    Ms. Schakowsky. I thank you.
    And I yield back.
    Chairman Yarmuth. The gentlewoman yields back.
    I now recognize the gentleman from South Carolina, Mr. 
Norman, for five minutes.
    Mr. Norman. Thank you, Mr. Chairman.
    Thank you, Deputy Secretary, for coming and for testifying.
    I would just like to emphasize what Congressman Johnson 
mentioned earlier. This Committee has not passed a budget, has 
not even come close. Here we are asking questions and some 
criticizing what the President's budget is when we have not had 
anything to put on paper to compare it to.
    Whether it is a family unit, a business, you have a budget. 
You have numbers. We just have failed to do that. So I hate 
that that is the case.
    Second, we are in the middle of a coronavirus. I have heard 
criticism about funding for a wall. My friends on the left 
continue to want to let everybody, anybody anytime in this 
country, which is really hard for me to believe with the things 
we are facing on the health crisis in this country, 
particularly now, but they still hold the opinion, let 
everybody in regardless of any type of security problem, which 
they think really falls way under our climate crisis that they 
say is above everything.
    So thank you for coming today, and let me ask you. You 
know, the congressional budget process is broken. Since Fiscal 
Year 2002, the Defense Department has operated under 14 CRs. 
This is terribly unstable, and it is unsustainable.
    You elaborated on it some. Can you go into further detail 
on how tragic this is for what you are trying to do, not the 
least, the leases that the military signs that are having to be 
completely redone and recalculated?
    Mr. Norquist. Sure. So I talked originally about you cannot 
do new-starts. So let me give an example of a system called 
iVATS, which is a set of goggles the Army has developed which 
uses modern technology and greatly enhances the ability to both 
train and to perform their mission.
    The Army did this under an accelerated plan using 
authorities Congress gave us because Congress said, ``We want 
you to innovate. We want you to move quickly. We do not want 
long, bureaucratic processes.'' And so they acted on that.
    And they have gone through very rapid prototyping. They put 
it the hands of the soldiers. They have gotten the feedback. 
They are set to move those into the next stage where there is 
some procurement that is involved in this production.
    But if there is a CR, they are going to need to wait, and 
they are going to need to wait until we get to the other side 
of the CR, even with the capability that the men and women of 
the Army find tremendously valuable and would like to be able 
to expand on.
    And you have that when you have the Columbia class 
submarine, which would also be a new start. You have got 
factories waiting on increases in production for things that 
the Department thinks they need, the Congress thinks they need. 
We are trying to increase the production.
    That factory is going to be told to wait. Well, anyone 
knows if you have built a factory to go from 50 to 100 in 
production and you hold it at 50, you have absorbed overhead 
cost. You have potentially hired people that are not able to 
work on the lines. You are wasting money.
    And so the challenge we have is these are very disruptive 
and disruptive effects on the Department of Defense. They are 
disruptive to the men and women of the Armed Forces. And it is 
disruptive to the men and women in the private sector who are 
working in support of the Department and trying to do so 
efficiently but cannot get a clear business signal from us of 
whether we are moving or not moving.
    And that sort of stop and go creates tremendous disruptions 
throughout the organization.
    Mr. Norman. So even though the Department of Defense is 
affected, it is a chain supply of those supplying the necessary 
weapons and materials. They cannot plan because they do not 
have a timeline. Nor do they have the dollars to try to figure 
out what they are to produce.
    Mr. Norquist. I went down to the Anniston Depot, and I 
asked them about their workload and the fact that we had things 
headed into maintenance. We had a backlog. We needed them to 
ramp up.
    And in all seriousness the person there looked at me and 
said, ``Well, when will you have an enacted budget? And when 
you get it, how much will it be for?''
    And the answer is I do not know.
    Then he says, ``Then what do you want me to ramp up to?''
    Because it is not just the fact you are under a CR. You are 
under a CR, and you do not know what your next number is going 
to be.
    Now, the Department may have a top line and there may be 
some clear agreement, but the funding level for that program is 
unknown to everybody involved, and so, therefore, they live in 
ignorance until the time of enactment, and that is disruptive, 
right?
    Those are the sorts of things that the clear signal, these 
are costs that we impose on ourselves through the process that 
we use.
    Mr. Norman. And I think we all can agree China is our No. 1 
threat. This just puts us further behind, if we are behind, 
than we already are?
    Mr. Norquist. To the best of my knowledge, they do not have 
CRs in China.
    Mr. Norman. Correct. Well, thank you for your service. 
Thank you for appearing today.
    And I yield back, Mr. Chairman.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentleman from Nevada, Mr. Horsford, 
for five minutes.
    Mr. Horsford. Thank you very much, Mr. Chairman, for 
holding this hearing to discuss the President's 2021 Defense 
budget.
    And thank you, Deputy Secretary, for being here.
    I have four military installations in my district, Nellis 
and Creech Air Force Bases, the Nevada Test and Training Range, 
and the Hawthorne Army Depot. President Trump has rerouted 
billions of dollars in congressionally approved funding for 
military projects throughout the country to build his 
unnecessary and ineffective border wall.
    Can you guarantee that none of the military installations 
in my district will have its funding stripped to pay for the 
border wall?
    Mr. Norquist. So my understanding, I do not know if any of 
them were affected by last year's. There is nothing to say on 
the 2808 for this year. So we are still awaiting clarity on 
what is going to happen there.
    Mr. Horsford. I would appreciate any advanced notice as it 
impacts the mission critical objectives that each of these 
installations play.
    Additionally, the Defense Department identified 401 sites 
as having a known or suspected discharge of toxic chemicals 
known as PFAS in drinking water or groundwater. Creech Air 
force Base was included in that list because firefighting foam 
that was being used had seeped into the water contaminating it 
with its chemicals.
    This particular issue impacts my constituents and so many 
other veterans that have served our country.
    Deputy Secretary, let me tell you about one of my 
constituents. His name is Kelly Charles. Kelly is 55 years old 
and was stationed at Camp LeJeune in North Carolina between 
September 1984 through May 1986, serving as a Marine.
    The reason that location and timeframe will never be 
forgotten by Kelly is because it is the origin for his 
development of thyroid cancer as a result of being exposed to 
contaminated waters.
    I frequently see Kelly and his wife when I am back home 
meeting with veterans that reside in my district. Kelly told me 
the day he was diagnosed with thyroid cancer was a gut check. 
It was on his 27th wedding anniversary with his wife and the 
day they were going to drive to Colorado to be with family for 
the Christmas season. Kelly was saddened by the news because he 
knew he would have to tell his children as well.
    He went to see his endocrinologist the next month after 
being diagnosed with thyroid cancer and discovered it had been 
spread to his lymph nodes. When he went to get his thyroid 
removed, he also had to get a surgical procedure to remove 50 
lymph nodes and a 2.5 centimeter tumor that has spread 
tentacles down to some of his shoulder nerves.
    As a result of these health complications and surgeries, 
Kelly has constantly had to monitor his health. He has had to 
take a pill that takes the place of his thyroid gland. He has 
daily brain fog. He is experiencing anxiety issues, and that is 
just to name a few.
    So as I am sure you are aware, in 2012, the Caring for Camp 
LeJeune Families Act was signed into law so that veterans who 
served at Camp LeJeune for at least 30 days between January 
1st, 1957 and January 31st, 1987 can have all of their health 
care expenses, excluding dental, taken care of by the federal 
government.
    But we must make sure that we are taking the necessary 
actions to prevent our service members, like Kelly Charles, 
from being exposed to contaminated waters. Protecting our 
military men and women abroad is extremely important, and 
protecting them here at home is equally as important.
    So, Deputy Secretary, what is the Defense Department doing 
today to address issues of contaminated water on military bases 
throughout the country?
    And how does your budget reflect the commitment to end the 
exposure of dangerous chemicals to our servicemen and women?
    Mr. Norquist. So thank you, Congressman, for bringing up 
this very important issue and the attention on the health and 
serious consequences.
    This is a matter of great importance to the Secretary of 
Defense, Mark Esper. When he came in and was sworn in as 
Secretary of Defense, his first act was to stand up the task 
force to deal with the PFAS/PFOA. He did that when he first 
came in. He recognized and shared your concern about the 
importance and it is his reliance and his emphasis on we need 
to take care of our military members and their families.
    As a Department we are doing several things. First and 
foremost is we are stopping the non-emergency use of these 
chemicals. We want to make sure we protect the water supply. We 
are restricting those uses.
    We are making sure we are treating and testing wells around 
the installations. We are treating the water so that other 
people do not drink unsafe water. We are investing in new 
technologies to let us get past this.
    But as you point out, this is a serious issue. The 
Department takes it very seriously, and it is a high priority 
for the Secretary of Defense to address this.
    Mr. Horsford. Thank you.
    I look forward to continuing to work with you on this 
issue.
    Thank you, Mr. Chairman. I yield back.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from North Carolina, Mr. 
Holding, for five minutes.
    Mr. Holding. Thank you, Mr. Chairman.
    Secretary Norquist, good to see you.
    As you may know, North Carolina considers itself the most 
friendly state to the military, and we have the third largest 
military presence in the country. Our state is home to Fort 
Bragg, which is the largest installation by population.
    We also have Camp LeJeune, New River Air Station, Cherry 
Point, Pope Air Base, Seymour Johnson Air Base, and Sunny Point 
Munitions Facility, which I believe is the largest munitions 
facility in the country.
    At Fort Bragg, we have the 18th Airborne Corps and the 82d 
Airborne Division and the U.S. Army Special Operations Command. 
So when the President calls 911, he is calling North Carolina.
    And like you, I never want our men and women to be in a 
fair fight. I want them to have the best training, the best 
intelligence, and the best equipment in order to overwhelm any 
enemy at any time on any battlefield.
    And a key to this success is their readiness. So if you 
could speak a bit about readiness and this budget's impact on 
military readiness.
    Mr. Norquist. So I appreciate the question, and the 
readiness is essential. When you talked about the units you 
have there, many of those are units that have to be able to go 
on very short notice, and so their readiness levels need to be 
at the highest level.
    And so one of the things that we have emphasized over the 
last several years as we have turned this around is, one, the 
training, making sure these units have training on schedule at 
the high level that they need to achieve a level of 
proficiency, which is unlike what any other force in the world 
is going to get so when they walk on the battlefield, everybody 
knows that they are the best.
    The other part is to make sure they have the most up-to-
date equipment and they are trained on it. So as you point out, 
so there is never a fair fight. That is not what we are 
interested in. We are making sure they have it right.
    This also gets to making sure that we have the proper 
numbers. So as I pointed out before, the end strength of the 
military had gone down dramatically. I think we were the lowest 
we had been since 1940. We added 38,000 people.
    Some of those people went into units to fill them out so 
they were closer to the 100 percent they need to be. Others 
like the Air Force went to be maintainers. Part of their 
challenge in readiness was keeping their planes up and running 
because they did not have maintenance personnel. So they added 
4,000 maintainers to try and drive it.
    Those are some of the key elements because readiness is 
really a series of things, as you understand, and we have 
invested in each and every one of those across the service to 
make sure that our military is capable of fighting tonight and 
goes to the battlefield with the better force and the better 
training at the field.
    Mr. Holding. Thank you.
    And I would just like to mention that as you look at our 
military installations and presence around the country and you 
consider any realignments, we in North Carolina would welcome 
more military.
    Mr. Norquist. Thank you.
    Mr. Holding. Thank you.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentlewoman from Washington, Ms. 
Jayapal, for five minutes.
    Ms. Jayapal. Thank you, Mr. Chairman.
    And welcome, Deputy Secretary, back to the Committee to 
speak on the President's $740.5 billion military budget.
    The sheer size of the budget demands a level of 
accountability, I think, that we have to take very seriously. 
Our nation's defense budget is already larger than that of the 
next seven countries combined and comprises nearly 35 percent 
of the world's total military spending.
    When you came before this Committee last year, we had a 
conversation about the audit, and I think we agreed on the need 
for fiscal responsibility, and I appreciate your efforts around 
this.
    As you know, in 2010, Congress passed a requirement within 
the NDAA that gave the military essentially an extra seven 
years to comply with the requirement that every federal agency 
has to conduct an audit. But we gave the military an extra 
seven years to clean up the books and get ready, is how it was 
described by I think it was Grassley, and we set a deadline of 
September 2017.
    In December 2017, your Department began the audit process, 
and when you came before the Committee last year, the Defense 
Department had failed that first ever agency-wide audit with 
only five of the 21 individual audits receiving a passing 
grade, even after seven years of preparation.
    This year only seven came back clean, a figure that you 
actually predicted during last year's hearing.
    Is it acceptable for two-thirds of a $740 billion agency to 
fail an audit?
    Mr. Norquist. So it is not where we want to be, and I think 
you and I share both a passion for this issue and a frustration 
with how long it took to get here.
    One of the things that I agree with you on is this notion 
of getting ready for an audit without actually having the 
audit, I do not know about you, but I have never understood. I 
have never been able to say to GAO, ``Please wait to do your 
audit until we are ready.'' Right?
    In addition to which you do not have the ability to know if 
you are ready without the auditors there. So my prior 
experience in Homeland Security had been when the auditors came 
every year. We knew our problems, and we knew whether or not we 
had fixed them.
    So I think the biggest change we did was move from this 
notion of we are going to keep spending money to get ready, and 
the answer is bring on the auditors. Bring on the bad news, and 
the truth is a lot of times people are averse to the bad news. 
And my answer is, no, we are not going to get better until you 
bring the bad news.
    Let us know who is good. DeCA got a clean opinion, our 
commissary, this year. That is a great step forward. We have 
other agencies that need to keep going.
    Now we have got a list of those weaknesses, and we can 
continue to work through them.
    So I think it is unacceptable to be here. Part of that is 
the nature of the systems that we built that were never 
designed for the audit standards. We are now switching over to 
ones that are.
    You do not want to pour a ton of money into one-time 
efforts that potentially get you there for one year and follow 
that. We need to be able to have sustainable solutions, better 
systems, more reliable processes.
    So, again, thank you and the other Members for your support 
of this, but that is what we are driving toward.
    Ms. Jayapal. No, I really appreciate that.
    What is your prediction for how many individual agencies 
are going to pass their audits this year?
    You were right last time. What is the prediction?
    Mr. Norquist. So I look for one to two every year to keep 
moving forward. I think we should in five to seven years see 
the vast majority of them with clean opinions.
    Ms. Jayapal. You think it is going to take seven years to 
get a clean audit for a $740 billion agency?
    Mr. Norquist. So it took 10 years for the Department of 
Homeland Security. Now, each year you saw the number of 
agencies with a clean opinion come down, but the Coast Guard 
held up the process for, I think, just five years on the Coast 
Guard alone.
    So the Department does not get a clean opinion until 
everybody gets a clean opinion.
    Ms. Jayapal. And let me just say I know you share the goal 
here, but I am frustrated by the idea that we would only get 
two more individual agencies every year, which you said one to 
two.
    Mr. Norquist. Right.
    Ms. Jayapal. That seems unacceptable to me. If a major 
corporation that was worth $740 billion was not able to tell 
its shareholders where the money was going, that CEO would be 
out immediately. We would not give them seven years to get 
ready and then another seven years to, you know, actually come 
back and be able to say how they are spending the money.
    This is taxpayer dollars that are going into an agency that 
continues to either not be audited or to fail audits, and it 
feels like there should be an urgency, especially from somebody 
like you, who I do believe we share this, and urgency and a 
push from your level to say, ``You know what? Two agencies 
every year is not sufficient. We have to ramp this up, and we 
need to get a clean audit for the entire Department within, 
say, two years.''
    Mr. Norquist. Right.
    Ms. Jayapal. It just feels unacceptable.
    And so I am just asking you to please be more aggressive 
and to tell me how you are going to get us better than one or 
two, and you are somebody who agrees with us.
    Mr. Norquist. Right.
    Ms. Jayapal. So I just need to hear something more from you 
on that, Deputy Secretary, and how you are going to push for 
more agencies.
    Mr. Norquist. So trust me. This is something I always keep 
an emphasis on and push on because of our shared concern here.
    Do keep in mind we are different than companies. First of 
all, they were built from the beginning to pass an audit and we 
were not.
    The second is----
    Ms. Jayapal. Which is an issue in itself.
    Mr. Norquist. Which is an issue, but the other part is 
because of the way we get provided money, our audit goes back 
and can touch 2015 contracts because those contract--in fact, 
they can go back almost 10 years because if you think of a 
construction project, the money is available for five years for 
award and then available for five years, and that is legally 
separate money from this year's appropriation.
    So the auditors can pull that and say, ``I want to see the 
invoice from 2011,'' and we have to provide it, and so some of 
the questions these agencies have are, ``How much time do you 
want me to spend finding documents from 2011 or should I just 
accept the fact that that year is going to be a irrelevant year 
and focus on getting 2020 correct?''
    So some of this is we have got to get the legacy 
documentation issues have to flow out, and I am trying to be a 
little judicious in taxpayer's money, not to launch people on 
futile efforts if the answer is and I tell them, ``Are you 
going to be able to get it cleaned up then year after year? OK. 
That is what I want.''
    How can you do it so you can sustain it. We will worry 
about the history part later, but I think this is an area I 
share. Do not worry. I will keep focusing on it.
    And let me just highlight for the Members here every time 
you bring this up, it is valuable, was the opening of our 
hearing with the Armed Services Committee. The Chairman opened 
by mentioning the audit. I do not forget to tell that when I 
talk to people inside the Department to make sure they 
understand your interest and their support.
    Ms. Jayapal. That is good. Well, we will keep being helpful 
in that way.
    Mr. Norquist. Thank you.
    Ms. Jayapal. And I would just say that perhaps the best way 
to really respect the taxpayers' dollars is to not continue to 
increase our defense spending until we can show that we are 
using this money properly and have a full clean audit.
    Thank you for your work, Deputy Secretary.
    I yield back.
    Chairman Yarmuth. The gentlewoman's time has expired.
    I now recognize the gentleman from Utah, Mr. Stewart, for 
five minutes.
    Mr. Stewart. Thank you, Chairman.
    And, Deputy Secretary, thank you.
    I am going to followup very quickly on the previous line of 
questioning. I agree with that. I think most of us do, and I 
appreciated your response about you all are not designed to 
pass an audit. I think that is a partial explanation.
    I have got to say, you know, the bad news and good news. 
The bad news is you are bad at audits. The good news is you are 
good at protecting national security, killing bad guys, and 
bringing the world stability, and I think that is important to 
recognize.
    But, again, we have to get a little better on that.
    I think one of the challenges that I would imagine sitting 
in your chair is the range of issues that anyone of us might 
ask. We put you in the hot seat.
    I am going to do that a little bit today, and I mean many 
times they are technical or local oriented, and I am going to 
do that as well. There are 1,000 questions I could ask you, but 
I think this one is, again, important to my district, important 
actually to our national security.
    And that is the Dugway Proving Ground, which is a national 
asset. It is in my district. It is designated as a major range 
and test facility base, and it is the home of the West during 
Desert Test Center.
    The team at Dugway are really, really good at what they do. 
They provide that critical capability to test a wide variety of 
defensive and protective equipment, and for those of us in the 
military who had relied on that equipment to protect us in a 
biological or chemical attack, I think you understand, or even 
radiologic or even explosive, you understand the importance of 
that.
    It is uniquely qualified. If you have never been there, it 
is one of the most isolated, frankly, kind of lonely places in 
the United States, but that is what makes it perfect.
    It is enormous. It is varied landscape. You know, you can 
test in desert. You can test in mountains. It is very realistic 
training.
    Now to my concern. I am very concerned that your budget 
eliminates all funding for the readiness level of technology 
upgrades to West Desert Test Facility, and particularly to the 
Biological Test Division.
    What it comes down to is this. The Department's rationale 
for cutting the funding seems to be that this program does not 
directly support an advanced national defense strategy, and you 
are turning it over essentially to the Army, which is not 
equipped or budgeted to do that.
    Again, share your thoughts with me on this. Why are these 
concerns misdirected?
    And if they are, why?
    And if they are not, how can we address it?
    Mr. Norquist. So I will need to look into this particular 
realignment. I think when we have met with the services, they 
have all emphasized the importance and the value of our test 
ranges and the need to be able to conduct testing and when we 
have some programs that allow each service to test on others' 
ranges and make sure they are able to take advantage of the 
technology.
    I am not familiar with this particular realignment from one 
group to the Army. I will look into this one.
    But in the end of the day, we understand the role that test 
ranges play and the importance of making sure the equipment we 
have delivers and performs as we need it do so.
    Mr. Stewart. Well, let me add just a little bit of detail 
that I think will maybe help you as you look into that.
    Again, as in MRTFB, as I have described, public law, which 
I could go into and tell you the number, but I am sure you will 
be able to find that, it provides direct stewardship for this 
national treasure to be supported by OSD.
    And yet, again, the budget request seems to place an onus 
on the Army, which is by law a DoD responsibility.
    So would you look at that and get back with us? We would 
appreciate it.
    We are concerned that this misalignment is going to have 
negative impacts on our ability to defend our soldiers.
    Mr. Norquist. Congressman, I would be happy to look into 
that and get back to you.
    Mr. Stewart. OK. Thank you.
    And with that, Chairman, I will yield back.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentlewoman from Minnesota, Ms. Omar, 
for five minutes.
    Ms. Omar. Thank you, Chairman.
    Good morning, Mr. Norquist.
    Mr. Norquist. Good morning.
    Ms. Omar. I had an amendment in last year's NDAA inquiring 
for a report on the process of overseas bases and operations. 
It was due on February 15th, but I have not received it from 
your Department.
    I am wondering if you know when we should expect to see 
that.
    Mr. Norquist. So I will go look and find out what the 
status of that is, Congresswoman.
    Ms. Omar. I appreciate that.
    I want to continue discussing the high costs found in your 
DoD budget proposal. I am sure you are quite aware that the 
United States outspends the rest of the world in military 
spending.
    Mr. Norquist. Yes.
    Ms. Omar. Under this Administration, the military spending 
has increased to near historic highs with the majority of 
funding being used to modernize our nuclear weapons and missile 
system.
    At what cost? You will see in the first figure that the 
lack of federal investment in our infrastructure has continued, 
has contributed to the United States failing behind other 
nations.
    The other graphic is a recent headline that shows how 
health and education outcomes have declined in the United 
States compared to our global peers as well.
    Mr. Chairman, I would like to submit the University of 
Washington study and this article into the record.
    Chairman Yarmuth. Without objection.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Ms. Omar. Given the Pentagon's constant funding increases, 
it seems clear to me that we do not need to spend more money on 
our overflowing arms stockpile. We instead need to start 
investing in our human capital for the benefits of both our 
national security and greater society.
    Are you worried that the drastic cuts proposed to non-
defense spending could affect our national security?
    Mr. Norquist. Congresswoman, I am going to let the other 
Secretaries speak to their budgets because each of them was 
part of designing those.
    Ms. Omar. Should we be reinvesting in domestic programming 
that directly contribute to the health, education, and 
development of the American people in order to strengthen our 
security here and abroad?
    Mr. Norquist. So we have programs inside Defense to make 
sure and protect our security. I leave it to this Committee and 
others to work on what the proper ranges of the domestic 
agencies are.
    Ms. Omar. Do you have any concerns that our long-term 
national security could be at risk if we do not invest in the 
physical, mental, and financial wellbeing of our youngest 
generation?
    Mr. Norquist. So we always have the issue in the Department 
of Defense on recruiting, and so we emphasize trying to bring 
in the right skill sets and the right recruits, and we focus on 
doing that.
    So making sure we have a well-prepared population to do 
that is always important to the Department of Defense.
    Ms. Omar. How do you expect a future leader will be able to 
fill your role one day without sufficient government support at 
home?
    Mr. Norquist. So I think one of the things that we always 
continue to look at in the Department of Defense is making sure 
that we, as we bring in young men and women into the military, 
that we have the right programs to train them on the equipment 
and technologies they need to be able to perform.
    One of the things you brought up is the difference between 
what we spend on the military and then other countries. What 
other countries like China predominantly use conscription, and 
so they do not have to pay their people very much to have them.
    One of the values of our freedom though is that we believe 
a volunteer force is more effective. It is more expensive, but 
then the freedom of other individuals to not have to serve in a 
conscription is very important to our country as well.
    So there are differences in how we fund, and we want to 
keep the fight as an away game, which means we pay and have the 
cost of the lift to keep it overseas.
    Ms. Omar. One of the great differences between the amount 
of money China is spending and the amount of money the United 
States is spending is China does not have to spend on the 
number of overseas bases like we do here in the United States.
    And I know that our job here in this Committee is to look 
at our budget as a whole, and if we are to think about putting 
together a budget that has our values and principles intact, we 
should really think about what it means for us to fully 
invested in educating our population, in caring for their 
health, and investing in proper infrastructure, and protecting 
ourselves here domestically as we do internationally.
    So thank you so much for being here.
    I yield back.
    Chairman Yarmuth. The gentlewoman yields back.
    I now recognize the gentleman from Texas, Mr. Roy, for five 
minutes.
    Mr. Roy. I thank the Chairman.
    I thank the Secretary for being here.
    When you were here last year, I think I opened noting that 
we were approximately $22 trillion in debt, and we are mounting 
about $100 million of debt per hour.
    Are you aware of what the debt is today?
    Mr. Norquist. I think that the deficit is $23 and a half 
trillion.
    Mr. Roy. Yes, total debt----
    Mr. Norquist. I am sorry. Debt. The total is $23 and a half 
trillion.
    Mr. Roy. Yes, about $23.4 trillion. We are racking up about 
$110 million of debt an hour.
    You know, this quote has been used a number of times by a 
number of folks, but former Secretary, General Mattis, agreed 
that the national debt was one of our greatest national 
security threats.
    Do you agree with that? Do you agree that the extent to 
which we are spending far more than we able to pay for is a 
potential negative impact to our national security in the 
future?
    Mr. Norquist. Yes.
    Mr. Roy. With respect to interest, for example, I think it 
is projected that we could have interest, and it depends on all 
of the assumptions, right, based on interest rates, based on 
growth, based on spending, but you know some projections have 
us at $819 billion by 2030. I think that is the CBO's 
projection. OMB's might be different based on its numbers.
    But that puts us at getting close to one to one if we are 
spending as much interest as we are on national defense. And, 
you know, again, is this something that you believe that 
Congress needs to move up in terms of our readiness and our 
ability to defend the United States of America abroad to get 
our fiscal house in order?
    Is that something that is front and center for national 
defense strategy?
    Mr. Norquist. So when you think of national defense 
strategy, you need to think of both security and solvency, but 
you need the military to protect the country that allows for 
the investments in the economy and free navigation of the 
water, but you need the solvency to be able to continue to pay 
your bills and achieve your goals.
    And so both of those have to be done in balance. It is one 
of the challenges. It is one of the reasons and focuses of this 
Committee is those exact types of those strategic tradeoffs.
    Mr. Roy. Well, thank you for that.
    And speaking of that, could you comment on what your 
perspective and the Defense Department's perspective is on the 
numbers put forward in the Democrat's proposed budget?
    Mr. Norquist. Are you referring to something out of this 
Budget Committee?
    Mr. Roy. Yes.
    Mr. Norquist. OK. Again, I am not familiar with that 
document.
    Mr. Roy. Right, because it does not exist, yet we are 
sitting here talking about the President's budget with some of 
my colleagues on the other side of the aisle making criticisms 
of that budget, but yet we have not taken up the work of doing 
that in this Committee or in this body, which strikes me as 
puzzling.
    Now, I will say I do appreciate Congresswoman Jayapal's 
focus on the audit. And so you said it is helpful. So let me 
add to the helpfulness by suggesting that it would be very good 
for us to move the audit through more expeditiously and not 
just getting a couple more per year. So please pass that on as 
well, that that is uniformly agreed to in this body, which is 
not often something we can say.
    But I think we definitely want to see that.
    Mr. Norquist. I have appreciated the bipartisan support, 
and on more than one occasion when I have had someone who is 
less enthusiastic than I think they need to be, I offer to 
arrange a meeting with them with one of the Members of Congress 
so they can explain if they think this is not important. And it 
usually helps solve the problem.
    Mr. Roy. Well, indeed, and I think it is critically 
important, and I do appreciate that, and I appreciate your 
attention to that, and anything we can do to push on that even 
further, just at the highest levels it is something that is 
critically important.
    I do want to say something about this point on the 35 
percent of the world's defense spending, seven times the next 
highest or, you know, more than seven times the most recent 
level of seven countries' spending.
    Where are we though today relative to China, Russia, and 
some of our national threats in terms of our ability to deal 
with multiple threats around the world?
    And how important is it that we have the level of defense 
spending that we are talking about to defend the interest of 
the United States at home and abroad?
    Mr. Norquist. So I think what we have to look at is the 
behavior of those countries and the challenge and the risk they 
pose.
    So what you have with China is while the U.S. supports a 
free and open Pacific that recognizes the rights of each 
country and promotes stability, the Chinese are continuing to 
harass Vietnam, Philippines, Indonesia and disrupt those 
rights.
    They are investing in their navy. They are expanding the 
size of their force. They are investing in long-range missile 
strike technologies designed to create direct threats to the 
U.S. Navy.
    And then in Russia, you have similar things. You have a 
country that has, you know, invaded the Crimea, has occupied 
parts of several neighboring countries.
    Mr. Roy. Right.
    Mr. Norquist. Each of them presents a very different 
threat, one more land-based, one more sea-based. Both of them 
away games, which is much preferable to having threats coming 
straight here, but they are extending the range of what they 
can do into the United States.
    Mr. Roy. Well, thank you for that.
    I think it is important for us to keep the defense 
spending, and as I note that the President's budget has defense 
spending going up modestly over the next 10, 15 years, and that 
is important.
    The last point I will make, and I know I am winding down my 
time, Mr. Chairman, is that with respect to the coronavirus 
situation, I just want to note that we had sent letters to DoD 
that have not been responded to. We sent them two and a half 
weeks ago with respect to the people moving to San Antonio, to 
Lackland, to just ensure that San Antonio is being considered 
in how we are handling those who are being cared for at 
Lackland.
    So I would appreciate a response on that, and that San 
Antonio be, you know, consulted in terms of how our medical 
facilities in the community are going to be used or assumed to 
be used when we have individuals who may be exposed and may 
exhibit symptoms at Lackland.
    Mr. Norquist. Congressman, I will make sure that the letter 
is answered. I know we have done briefings to the Hill on a 
weekly basis, but we will make sure we answer the letter.
    Mr. Roy. Thank you, sir.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentlewoman from Texas, Ms. Jackson Lee 
for five minutes.
    Ms. Jackson Lee. I thank the Chair.
    I thank Deputy Secretary Norquist for his presence here.
    Not wanting to take up all of my time, but give me a brief 
answer to the gentleman's question from Texas, and that is what 
are the Department of Defense's protocols for the medical care.
    Is it military medical care that is being utilized for 
individuals at a quarantine or are you using civilian medical 
care?
    And are you then intending to reimburse those civilian 
resources that are going to be used even though persons are 
quarantined on the bases?
    Mr. Norquist. So the individuals that we are talking about 
in the quarantine are not DoD personnel, and they are not 
people who are employed or supported by the Department of 
Defense. They are American citizens.
    Ms. Jackson Lee. No, I am well aware of that.
    Mr. Norquist. So we do not have legal authority to 
reimburse somebody for their medical care because they are not 
somebody we----
    Ms. Jackson Lee. So you just have accepted them as a non-
involved host. Is that what you are saying?
    Mr. Norquist. Correct. We get reimbursed by HHS to provide 
basically a housing arrangement where they can be quarantined 
that meets HHS' standards.
    Ms. Jackson Lee. And then so if there is need for medical 
care of these individuals, who is engaging with that on the 
base?
    Mr. Norquist. So HHS works with either the local community 
or in some case they have been flown to other facilities based 
on what is the right place to provide them the appropriate 
level of medical care.
    Sometimes it is local communities. Sometimes it is not, but 
I defer to HHS on how they make those decisions on the----
    Ms. Jackson Lee. So you are a landlord, if you will, and 
you are being paid by HHS.
    Mr. Norquist. In this case, yes. We provide those 
facilities to house them while they are in quarantine.
    Ms. Jackson Lee. And secondarily, have you established a 
protocol for active duty military that may--we understand there 
is one and there may be another one--that may be infected by 
the coronavirus?
    Mr. Norquist. Yes, we have processes that we deal with when 
somebody inside the Department of Defense is identified. We go 
through the proper quarantine, and we follow the CDC standards.
    Ms. Jackson Lee. I see that the budget has gone from about 
$738 billion to $740 billion. Where is the money? Has the money 
already been snatched as it relates to the building of the 
wall?
    Mr. Norquist. So the Fiscal Year 2021 budget request, it is 
not our expectation and we do not foresee that there will be a 
requirement to do border wall construction in 2021. We believe 
that what the President is planning to do will meet his 
requirement in 2020 and prior years. So we do not anticipate a 
need or foresee one to realign any of the funds and we are not 
asking for any in 2021.
    Ms. Jackson Lee. Well, in this instance, the President 
never asked anyone, as you well know. He just presumptively and 
willy nilly snatches money away from people.
    But obviously this is a very big budget. So are you telling 
me that you have already expended dollars for the wall in the 
last fiscal year, 2020?
    Mr. Norquist. So in 2019 we funded money for the wall under 
authorities 284 and 2808, and in Fiscal Year 2020, this year, 
we have realigned funding under the authority of Section 284, 
and that is the money that we are currently looking to execute 
this year in support of the border wall.
    Ms. Jackson Lee. It has not gone yet, but you are still in 
the----
    Mr. Norquist. I do not know if it has started to be 
obligated yet, but it has been realigned.
    Ms. Jackson Lee. I am frustrated, Mr. Chairman, as to 
whether, just speaking into the record, frustrated by the fact 
that we cannot find a way to, in essence, withdraw that power 
for the Defense Department to reprogram those dollars without 
the authority of the U.S. Congress.
    Let me ask. Is the spread of the coronavirus a national 
security risk in your perspective?
    Would you say that the non-defense investment to combat the 
spread of such diseases and prevent a pandemics are part of our 
national security?
    Do we look at it in that manner?
    Mr. Norquist. So I think it is important for the security 
of the homeland that we properly address this. I think that the 
President and interagency team have taken strong steps with 
first limiting the flights, doing screening, establish 
quarantining.
    We will have to see how this disease continues to spread as 
we try and buy time as they work on vaccines and therapeutics 
to address it.
    But it is a serious issue, and we are taking it seriously.
    Ms. Jackson Lee. Would you put it in the category of a 
national security issue, particularly as it spreads so quickly? 
It can spread so quickly.
    Mr. Norquist. It can become one if it continues to spread, 
yes.
    Ms. Jackson Lee. I have been working consistently on 
another matter, triple negative breast cancer, the number of 
women that you have in the United States military. Would you 
look into tracking the funding for that?
    It obviously deals with treating active duty military 
women, and it is a more deadly form of cancer. I have been 
working on that for more than a decade. I would like a response 
back on working with me on funding of that area and working 
with women members of your military, active duty, in terms of 
triple negative breast cancer.
    Mr. Norquist. Congresswoman, I would be happy to work with 
you on looking into that issue.
    Ms. Jackson Lee. And just as a followup, do you think it is 
a better investment in stopping the coronavirus or working on a 
wall that has shown no value?
    Mr. Norquist. So when I talk to the border patrol agents on 
the southwest border and asked them about the value of the 
wall. They were very clear. The individual I talked with in the 
border patrol said it works, that it has made a significant 
difference in there.
    We as a nation have to balance our ability both to secure 
our borders and secure the health of our people, and those are 
some of the tradeoffs that we make across the country.
    Ms. Jackson Lee. Chairman, just one question.
    When OMB withheld Ukraine assistance funding last summer, 
did anyone at OMB or the White House tell you why they withheld 
these funds?
    Mr. Norquist. I am not familiar with that. My understanding 
is that we received documents from OMB asking us to wait, and 
then we received documents telling us to go, and then we 
released the money accordingly.
    Ms. Jackson Lee. So they did----
    Mr. Norquist. I don't have anything further to add in terms 
of the cause or what was being----
    Ms. Jackson Lee. No explanation at all.
    Chairman Yarmuth. The gentlewoman's time has expired.
    Ms. Jackson Lee. Thank you.
    Chairman Yarmuth. I now recognize the gentleman from Texas, 
Mr. Crenshaw, for five minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you, Mr. Deputy Secretary, for being here.
    Just a quick question. In the face of a global pandemic 
would you rather have less border security or more border 
security?
    Mr. Norquist. You are always better off with more border 
security.
    Mr. Crenshaw. Do physical barriers contribute to border 
security?
    Mr. Norquist. They very clearly support border security.
    Mr. Crenshaw. Going back to the audit we were talking 
about, I want to go into a little bit more detail on that. The 
DoD was able to complete the first ever audit, found about $5.7 
billion of efficiencies present.
    Can you talk a little bit more about what that process was? 
I have heard it called ``the Night Court,'' where we are 
looking at unexecuted funds and seeing how we can reprogram 
those.
    What does that process look like? How do you decide where 
to reprogram them?
    Mr. Norquist. Sure. So what you are talking about, I 
believe for the $5.7 billion is called the Defense-wide review, 
a meeting the Secretary and I chaired, and what we did is we 
walked through the part of the defense budget that is not 
assigned to the Army, the Navy or the Air Force, what we call 
the fourth eState.
    And what we looked for was not the sort of things that were 
bad or wasteful, but less important and something we would give 
up in order to be able to invest in the higher end fight, 
hypersonics, artificial intelligence, moves in the right 
direction.
    So we looked at programs that had been started decades ago 
where the funding level was steady, and the answer is is it 
still necessary, and in some of those we brought those funding 
levels down.
    We looked at foreign military sales. We charge other 
countries for the overhead cost, but we did not charge them for 
the full overhead cost. So the answer is, well, this is an area 
where, you know, if they are buying the weapon, they should pay 
the fully loaded cost. So we have come to Congress with an 
authority change to do that.
    We finished some of the transfers that were to DLA that 
drive efficiency in the way they operate. We are rightsizing 
some of the medical treatments facillities.
    Not easy choices, but you know, we have a flat topline, and 
we have got to find reforms internally, and this is what the 
taxpayers expect us to do in order to be able to meet the 
future challenges.
    Mr. Crenshaw. And then next year's budget, I understand, 
you aregoing to a zero-based budget review. What do you expect 
to see in that process?
    Mr. Norquist. Sure. So what the Secretary did when he was 
in the Army was called Night Court, and he went through and he 
did a zero-based review of the Army budget.
    He has asked for the Air Force and the Navy in this cycle 
to do the same thing, which really goes back to look at each of 
the items, even things that have been steady-state in the past, 
and ask are those still the highest priority, not are they 
useful, but are they the highest priority compared to the 
things you are not able to do now, and if they are not realign 
the money.
    Mr. Crenshaw. One concern I have, especially from my own 
time in the military, is frivolous end-of-the-year spending. 
What can we do to get a handle on the spending sprees that go 
on, not just in the DoD, of course, but throughout government 
at the end of the fiscal year?
    What incentives can we put in place that commanders feel 
obligated to give that money back to the Treasury?
    Mr. Norquist. Right. So what happens in the federal 
government and in Defense is when you get to year-end, you have 
this odd use it or lose it, which you have $100. If you spend 
it by 1 October, you get what you bought it for, but by 1 
October if you have not, it goes away altogether.
    This is not how you and I handle our salaries. We do not 
get to the end of a calendar year and take all of the money we 
earned and hand it back into our employer if we did not spend 
it.
    This creates some very bad incentives for people to spend 
money at year-end. It adds to things being put in inventory 
that we do not have awareness.
    We have a proposal in the budget, which is an authority 
that other federal agencies have, which say to someone if you 
do not spend it, your organization gets to have 50 cents on the 
dollar next year.
    And our idea is if you are looking at year-end and what you 
are looking at is not as valuable to you as 50 cents on the 
dollar next year, we would rather you not buy it, and I think 
that sort of incentive which some of the other federal agencies 
have is a step in the right direction to drive down that 
wasteful spending.
    Mr. Crenshaw. Is that a new idea or have you implemented 
that yet?
    Mr. Norquist. It is a new idea we have proposed in this 
year's budget to go into. We would ask for this Committee and 
others' Members to support that provision.
    Mr. Crenshaw. OK. Can you send us more details on that?
    Mr. Norquist. I would be happy to, sir.
    Mr. Crenshaw. That would be great.
    In my limited time, I want to talk about acquisition 
processes. And what have you guys done to improve acquisition 
processes and make them more efficient over the last couple of 
years?
    And do you believe we are in a good place yet to really 
take advantage of the new cutting-edge innovation?
    It is not often being done by the bigger defense 
contractors, but by smaller companies. Are we able to quickly 
take advantage of that?
    Mr. Norquist. We are working on it. So let me get to your 
first question, which is we had in the past a long acquisition 
process, but Congress made some changes. They split our 
research office from our acquisition office. They gave us 
authorities to streamline some of these.
    We in the last few months have issued the guidance to 
implement those. We have mid-tier acquisition, as an example, 
rapid prototyping. Those are some of the new processes that 
allow us to move in a more expedited manner.
    Those were very successful. We appreciate it.
    The Army's iVATS program is another example of doing this.
    There is more to be done. You know, we need to do more and 
we continue to do outreach to smaller companies that do not 
have traditional experience, but we are still a hard partner to 
deal with, and we have a lot that we bring, and trying to 
reduce those and facilitate that transition is key.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from California, Mr. Panetta, 
for five minutes.
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate this 
opportunity.
    Deputy Secretary Norquist, welcome, and thank you for 
taking the time to come here.
    As we talked briefly, I wanted to mention a little bit 
about my district on the central coast of California and many 
of the installations there, from the Navy postgraduate school, 
Defense Language Institute, Fleet Numerical Naval Research Lab, 
Camp Roberts, Fort Hunter Liggett, and a few others that are 
there.
    Obviously, you know, very concerned with making sure that 
they continue to contribute to our national security and have 
the resources to do that.
    But I have to say one of the ways that they do do that is 
with the Office of Economic Adjustment, OEA, which you have 
heard of quite a bit, which I do believe supports the readiness 
and resiliency of those types of military installations in 
defense communities around the country, not just on the central 
coast, by furthering the priorities of the national defense 
strategy.
    The OEA has provided tremendous value to many local 
installations by responding to defense job losses, reductions 
in defense economic activity, tax base reductions, mission 
needs for increased public services and infrastructure, and 
local missions being impaired by civilian activity as well.
    And some of the programs of interest include the Community 
Investment Program, Military Installations Sustainability 
Program, the Downsizing Program, that type of program which 
assists states and local governments in response to DoD force 
modernization, whether it be through BRAC or other processes.
    And you know, recently, as you know, Secretary of Defense 
Esper recently completed the Defense-wide review, and he did 
that to obviously improve the alignment of time and money and 
people for the NDS priorities.
    The DWR was a comprehensive examination of DoD 
organizations outside of the military departments, and one of 
those was the OEA.
    Now, as you know well, in the Fiscal Year 2020 reenacted, 
the funding for OEA of almost $450 million; I think it was 
449.6 million. Yet this President's budget cuts more than $418 
million from OEA. Correct me if I am wrong.
    Now, given the significance of OEA and how important it is 
not just to our districts, but clearly in Congress by 
allocating them as much as we did in Fiscal Year 2020, was that 
understanding accepted in this A, considering the significant 
amount of cuts for OEA?
    Mr. Norquist. So, first of all, we do not normally request 
450 million. I think we requested much smaller than that. Most 
of those are adds put in by Congress.
    From the number we had, what we did in the Defense-wide 
review is we looked at the types of things we were funding, and 
I forget the exact number for OEA and brought that down in 
order to free up that money for artificial intelligence, 
hypersonics, and others.
    But as you point out, this is an area of congressional 
interest. There are frequently adds put in on it to address 
concerns that Congress had. Those would still continue, of 
course, as Congress directs us to do those.
    Mr. Panetta. OK. So what you are saying is that even though 
Congress had that number, would you say a majority of that 
number was congressional interest?
    Mr. Norquist. Yes.
    Mr. Panetta. OK.
    Mr. Norquist. It was not in the President's budget. It was 
in the enacted budget.
    Mr. Panetta. Understood, understood. How much did the 
President want to cut OEA last year, not this year but last 
year?
    Mr. Norquist. Most of these are initiatives and projects. 
So it is not like it is a steady state, you know, where you 
have a certain number of people over a certain number of years. 
We fund the small staff that runs it. These are particular 
initiatives to assist a particular base. So usually once the 
funding is done, my understanding is the initiative is done.
    So each year you have to decide what you want to do 
separately for that year.
    Mr. Panetta. Understood, understood. Well, just know that 
we will continue to fight for OEA based on the importance to 
our district.
    Mr. Norquist. Understood.
    Mr. Panetta. And look forward to funding it appropriately.
    Thank you again for being here.
    I yield back.
    Chairman Yarmuth. The gentleman yields back.
    I now recognize the gentleman from Georgia, Mr. Woodall, 
for five minutes or 10 minutes depending on whether Mr. Womack 
returns.
    Mr. Woodall. I thank the Chairman.
    Deputy Secretary, thank you for being here, and thank you 
for taking all of our questions today.
    I want to go back to some of the suggestions that the 
Defense Department spending has just been running amuck. I have 
only been in Congress for nine years. More often than not, 
spending has gone down in your Department as opposed to up. I 
do not want to conflate the DoD budget with the VA budget, of 
course. Veteran spending has gone up each and every year, and I 
think that is something that we share on both sides of the 
aisle.
    Defense Department spending as a share of GDP is more 
likely to go down during the time I have been in Congress than 
to go up.
    As a Budget Committee Member, I want to see that balanced 
budget. I appreciate you knowing right off the top of your head 
where our national debt is because that is also a national 
security issue, as we have discussed.
    As we try to be good stewards of taxpayer dollars and 
certainly good supporters, great supporters of our men and 
women in uniform, talk to me about that balance between 
spending too little and spending too much.
    I appreciated you making the point with Mr. Panetta that 
the President and DoD are setting what they believe are 
national security priorities. If the Congress wants to go a 
different direction, they are welcome to spend money----
    Mr. Norquist. Right.
    Mr. Woodall [continuing]. any way the Congress wants to 
spend money, but the President's budget is focused on national 
security.
    Tell me about that balance between spending too little and 
spending too much.
    Mr. Norquist. So what we look for is we understand that the 
importance, fundamental importance, to the Department of 
Defense, everything else that the country does and the 
government does. What we do every day works under the 
assumption that you can safely ship things across the ocean, 
that you have access to that, that we have free trade, that we 
do not have threats immediately on our border, that we are able 
to work with a network of allies, that other countries are free 
and independent.
    All of this depends on a strong military. The ability to 
deter other countries from engaging in conventional war 
provides us an unbelievable level of peace and stability. It 
drives them to, you know, either unconventional or terrorist 
operations. It drives them to cyberattacks, but that is because 
it is keeping them from a conventional war.
    That ability drives the success of the U.S. economy. It 
makes everything else in the federal budget possible. It allows 
the government to have the revenue it does.
    You want to size that right. You get it wrong, placing 
second in a war is bad. It is catastrophically bad. So you want 
to make sure you get that right. But it is not something that 
just automatically needs to be higher. So when we look at 
defense, what is necessary to meet the mission that we have 
been given?
    Right now we are at 3.1 percent of GDP. That is incredibly 
low compared to where we have been in the past. We think in the 
future we need to be careful not to fall too far, that we keep 
that level up, but if we can provide the security, then we have 
done our mission properly, and what we have to do is look 
across the range of near-term and long-term threats to make 
sure that we do not fail the American people by providing the 
freedom and the security that they depend on.
    Mr. Woodall. Yes. It is much more likely that my 
constituents will identify with your terrorist mission than 
identify with keeping shipping lanes open. So much in the DoD 
budget that folks do not realize is there.
    There was a time the Corps of Engineers would have been the 
only group large enough to do major construction projects. It 
may not be true in 2020.
    We did not used to think about the DoD as a place for top-
notch medical research, but now the congressionally directed 
medical research program is growing each and every year.
    Tell me about those what I would call ancillary missions to 
the national security mission that you laid out.
    Mr. Norquist. Right. So the Department of Defense, because 
of the range of things we do, we end up with a medical lead 
sometimes. Think about it. Our forces are deployed all around 
the world. There was a time in history where a disease killed 
more people in the military than combat or anything else. So we 
are used to what do we need to do to be able to safely deploy 
troops into the Middle East, into Africa, into parts of Asia to 
make sure they are protected.
    And we do research on those, and we maintain the records, 
and in some cases, we have some of the best data bases, and we 
are working very closely with CDC and others to make sure that 
our research is available to them and our research individuals 
are available.
    Likewise, we have large populations which we provide 
medical support. They get not on the same scale as private 
sector, but we have niche areas in which we have an expertise 
because of the types of injuries we are trying to solve, and 
that provides a benefit to other communities as well.
    Mr. Woodall. So as the President is going through trying to 
prioritize spending across those categories, whereas as it 
relates to OEA, the President might say, ``I do not find this 
to be a core mission.''
    Mr. Norquist. Right.
    Mr. Woodall. ``If Congress wants to fund it, Congress can 
fund it.''
    Now, when it comes to the Corps of Engineers, when it comes 
to nationally directed medical research, those have been places 
that I have seen the Administration place priority.
    Mr. Norquist. Right.
    Mr. Woodall. That is a shared vision?
    Mr. Norquist. Right. And the Secretary's view, to get this 
point, is you are better off with agencies that come forward 
and say, ``I am willing to and believe these are lower priority 
to invest than something else,'' than someone who comes forward 
and says, ``I have to have everything and then something.'' 
Right?
    The answer is you expect us to do due diligence over our 
budget and to make prioritization choices. You may not agree. 
You may change them. That is fine. They may adjust OEA. That is 
fine.
    But you expect us to scrub them, say these are the things 
we think we need to stop, these are systems that we need to 
retire, and this is what we need to invest in, and we can 
defend and explain why we are doing that.
    Mr. Woodall. I know that transparency is welcome on both 
sides of the aisle.
    Thank you very much for that.
    Mr. Norquist. Thank you, sir.
    Mr. Woodall. Mr. Chairman.
    Chairman Yarmuth. The gentleman did not get 10 minutes 
today, only five. His time has expired.
    I now recognize the Ranking Member for 10 minutes.
    Mr. Womack. I thank the Chairman.
    And thank you, Mr. Norquist. Sorry. I had to unplug. We had 
the SOUTHCOM Commander in his hearing over on the 
Appropriations side, and I felt obligated to spend some time 
with Admiral Fowler over there.
    My principal question is in regard--and I think this has 
already come up today, and I apologize if it has--the 
reprogramming of dollars for the border wall, which I support 
building that wall.
    I have been on record as saying that since the time I have 
been here in Congress. However, it looks like that this year 
the bill payer is the National Guard for the most part. You 
took all of the NGREA money, the Humvee modernization money, C-
130Js, and so on.
    As I explained in a previous hearing, as a Guardsman I 
remember the days when I was an armor officer and jumping off 
the back of an M60A3 (TTS) tank, knowing that if I ever 
deployed to a combat theater and fell in on a tank, it was not 
going to be the M60A3; it was going to be the M1. And so I use 
that example to support my argument that we said around the 
turn of the new millennium to our National Guardsmen that we 
plugged into the war fight right after 9/11, my battalion being 
one of the first out, that they were no longer going to be 
treated as a hand-me-down force; that we were going to make 
sure that they were manned properly, that they were trained 
properly, they were equipped properly so that when they left 
their home station and went to pre-deployment training, that 
they were going to be falling in on the equipment that they had 
been training on, and that they would see in theater.
    This is a step backward from that, in my strong opinion, 
and it's not just the fact the NGREA account has been zeroed 
out or that the Humvee modernization has been zeroed out. Maybe 
the most important issue at play here is the message that we 
are sending to our citizen soldiers.
    I think it is a step backward, and I think if it is a 1-
year issue, that may be one thing. I am concerned that it could 
become the bill payer for other things, and I want to make sure 
that there is somebody up here advocating for the men and women 
that are scattered across this country doing something else 
today, but this weekend will be training to go fight for their 
country.
    And I think it is a terrible message that we are sending to 
our men and women in the Reserve component structure.
    So I want to ask you really why, and let me just add to it.
    As I understand the discussion, the question was put by the 
Chairman of the Joint Chiefs to the National Guard leader, 
General Lengyel, the question of whether there was a strategic 
issue with the transfer of these funds.
    And I understand that General Lengyel looked at it and said 
there is not. It is not that we are going to lose a war by 
losing these funds.
    But remember the National Guard has another mission as 
well, that sometimes we are too quick to forget, and that is 
they have got a state mission. And some of this equipment is 
extremely important and vital to the accomplishment of their 
state missions, which will happen every single year.
    So to you, Mr. Norquist, can we get some assurance that we 
are not going to go back to the National Guard year over year 
and take these funds for other purposes and continue to make 
them a bill payer?
    Mr. Norquist. So, first of all, we value the National 
Guard. It is not our intent or expectation that would happen 
with regard to the wall. We do not foresee that next year.
    But I think the important thing is and let me address sort 
of the why because there was no intent to create any impression 
on the Guard. We value the Guard. We understand the role of 
their mission.
    So let me just walk through a few of the items. So, for 
example, the Humvees, the Army is transitioning to the Joint 
Light Tactical Vehicle. So when asked about that funding, we 
went to the services.
    Is this something that we asked for in the budget? Is this 
something that when you ask for money above and beyond the 
budget--and each of the services had--was it in there? Is there 
something that you need for the future?
    The Army said, ``We are moving away from the Humvee. We are 
headed to the Joint Light Tactical Vehicle.''
    With regard to the other National Guard equipment, we had 
put in the budget request for about four and a half billion for 
the National Guard for equipment. Congress funded it. We 
supported it. That is not affected.
    There is a congressional add that has happened over the 
last several years, this one of about $1.3 billion. So we 
looked at that, and we said, ``Is that urgent? Is that 
important?''
    And what we saw was the congressional adds for the previous 
two years, there was still $1.5 billion that had not been spent 
yet. So there is still one and a half billion this year for 
additional Guard equipment.
    So it was not more of the emphasis on the priority of the 
Guard. With some of the ship choices and others we said, ``Is 
it money we need today and this year, or is it something that 
is going to follow later after this year's funding has been 
spent?''
    Mr. Womack. Well, to be fair now, that NGREA spending is a 
3-year obligation, correct?
    Mr. Norquist. Correct. Normally, they normally spend mostly 
in the first year, but you have up to three, right.
    Mr. Womack. So is it not unfair to take a snapshot in time 
and claim you have got all of this unfunded revenue sitting 
there that can be used for these other purposes?
    And, again, I go back to what I have said in the beginning. 
If it is a 1-year anomaly that we are talking about here, I 
believe our Reserve component structure will salute smartly and 
charge the hill.
    But I want to be on record for sure and I want somebody to 
be able to stand up and tell me that this is not anticipated in 
future years, i.e., when this Congress plugs in more money for 
NGREA in Fiscal Year 2021 and beyond, that it is not going to 
be looked as low hanging fruit to reprogram for other purposes.
    And that is because our National Guard and Reserve 
component, as you have already admitted, is a vital part of our 
operational force today.
    Mr. Norquist. So to answer you specifically, this is not 
anticipated in future years. I will make you that commitment.
    I think what I would highlight is for any program that had 
an entire year's worth of funding unspent in a new year, we 
would be looking at that program. This is not a Guard-specific 
thing.
    If I had other programs that had that large of a carryover 
balance, we would be looking at them as potential sources in a 
mid-year reprogramming or something else because it is 
atypical, right?
    But I think your key point is is this a one-off because of 
obligation rates or something unusual, or is this a deemphasis 
on the Guard. This is not a deemphasis on the Guard. The Guard 
is critical, valuable. The Secretary recognizes their 
importance, and we will make sure they are properly supported.
    Mr. Womack. Very good. Thank you, Mr. Chairman. I yield 
back.
    Chairman Yarmuth. The gentleman yields back.
    I now yield myself 10 minutes for questions.
    Once again, Deputy Secretary, thank you so much for being 
here.
    I am kind of curious about some of the comments made by my 
Republican colleagues about criticisms of this budget. I really 
have not heard many criticisms of the budget. I have heard a 
lot of very good questions and serious questions, and you have 
treated them as legitimate and serious questions.
    You mentioned in your statement, you referenced the 79 F-
35s that are in this budget. That has been a project which has 
been controversial, to say the least, taken a long time, lots 
of revisions in cost and so forth.
    Could you give us an update on how that project stands now, 
what we can expect the cost to be, and so forth?
    Mr. Norquist. So the F-35 program is now on track to I 
think it is rolling off its 500th aircraft. So it is well into 
its production. It is producing one of the or probably the top 
aircraft in the world, and it provides us incredible 
capabilities.
    The cost per aircraft is continuing to come down as we get 
further into the process, down to I think just under $80 
million a copy.
    And one of the things that we are focusing on in our team 
and working with them on is the sustainment cost, right? We 
have gotten the program. The quality is getting there. The 
price is coming down, but we need to make sure that the 
sustainment cost because this is going to be the core aircraft 
in our fleet is something we address.
    And so that, I think, for exactly where we are going in the 
future and focusing on, keeping and driving down the 
maintenance and sustainment cost for the platform will be a 
focus area for us.
    Chairman Yarmuth. Thank you for that.
    Recently the courts ordered work stopped on the Joint 
Enterprise Defense Infrastructure Project, also known as JEDI, 
which is a $10 billion cloud computing contract for the 
Pentagon, and that was because of a legal challenge brought by 
Amazon.
    As anybody who has read the news knows that the contract 
was originally awarded to Amazon, and then it was basically 
taken away from them and awarded to Microsoft after the 
President made comments about the Washington Post and Jeff 
Bezos, the owner and chief stockholder of Amazon and the owner 
of the Washington Post.
    Now, I have no idea what went on within the Pentagon in 
that process, but I am concerned that the President's comments, 
tweets, and so forth that were aimed at Amazon creates 
questions in the public's mind as to the credibility of the 
process.
    First of all, how important is that project for the 
Pentagon and the Pentagon operations?
    Mr. Norquist. So first of all, let me say two things. The 
project is very important. When you think of what a cloud 
computing does, imagine if every time you wanted to add an 
electrical appliance you had to put in extra power generation 
system beside your house, your building. That slows it down.
    The artificial intelligence does the same thing. Instead of 
buying a server, I plug into the system, and the cloud ramps up 
the capability. So it acts like a power plant providing lower 
or higher electricity, lower or higher computing power.
    And when you think about it, the demands of the future 
systems we are fielding are essential.
    I would like to correct one thing though, which is in the 
press they acted as if there was already a winner and they 
thought a particular firm would win. That was never the case.
    The evaluation process was done. Amazon was not selected. 
Microsoft was, but it was not as if there was a reversal in the 
decision. They were simply one of many competitors and in the 
downselect.
    And I would emphasize so that the public understands we 
have a rigorous acquisition process. The people who evaluate 
these proposals are divided into separate groups. Each one only 
sees a segment of it. So they do not know how their scoring 
affects the overall winner.
    Generally their names are not released so people do not 
know who to go and influence. They are held to strict criteria. 
In fact, the court case with the judge is over the particular 
application of an evaluation criterion. It was not about the 
President. It is about the criteria.
    A fair comment. We are working through that, but we have 
professionals who do this, Uniform Military and career 
civilians. I would like to say I have confidence in the 
process, and when I was asked, I did not know who the winner 
was, but I was asked can we go forward with the award.
    I met with the IG's Office because I had promised Congress 
I would, and I said, ``Before we award, you have been doing an 
investigation. Have you seen anything that would cause you to 
advise me not to go forward with the award?''
    And the IG said, ``No, I have found no reason for you not 
to go forward with the award.'' And so we did.
    And so I just want to reassure people. We followed a 
diligent process. It was rigorous. It was done appropriately, 
and we have confidence in it.
    Chairman Yarmuth. Is there a DoD policy in place forbidding 
Pentagon officials from making public comments about bids for 
contract?
    Mr. Norquist. I do not know what the official policy is in 
terms of commentary, but generally, we have a strict process in 
terms of how we receive and evaluate awards, and we segregate 
people from those who are allowed to work on the evaluation 
process and those who do not.
    Chairman Yarmuth. Thank you for that.
    I want to turn to South Korea for a minute. So South Korea 
has been paying us a billion dollars a year roughly to support 
28,000-plus troops in that country, and that agreement has now 
expired. We do not have an agreement in place, and it has been 
reported that the President is asking for $5 billion 
compensation from South Korea as opposed to one billion, a 
fivefold increase.
    Two questions. What would be the impact of and what would 
happen if the South Koreans refuse to pay the $5 billion?
    I know that there are roughly 9,000 Korean employees 
working at our facilities to help support our troops over 
there. So it potentially could be very disruptive to that 
economy.
    And does the President's budget contemplate a $5 billion 
payment from the South Koreans?
    Mr. Norquist. Sure. The State Department is the lead on the 
negotiation, and I think we look forward to working with the 
South Koreans. The President has been very clear. He wants 
other countries to increase their investment in their own side, 
and we support that.
    In terms of the negotiation, I defer to the State 
Department on the latest plans or what the backup plan would be 
if one of them was not enacted.
    I will have to get you for the record what assumptions are 
built into our budget. I do not know that off the top of my 
head.
    Chairman Yarmuth. I would appreciate that very much.
    That is actually all I have. So once again, I thank you for 
your presence here, your responsiveness, as you have done two 
years in a row now. We appreciate that very much.
    And if there is no further business, this hearing stands 
adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
</pre></body></html>
